<html>
<title> - RIGHTS OF CRIMINAL SUSPECTS AND DEFENDANTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
               RIGHTS OF CRIMINAL SUSPECTS AND DEFENDANTS

=======================================================================

                               REPRINTED

                                from the

                           2007 ANNUAL REPORT

                                 of the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2007

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                                 ______
                                     
                    U.S. GOVERNMENT PRINTING OFFICE
40-481                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House                                Senate
                                     
SANDER LEVIN, Michigan, Chairman     BYRON DORGAN, North Dakota, Co-Chairman
MARCY KAPTUR, Ohio                   MAX BAUCUS, Montana
MICHAEL M. HONDA, California         CARL LEVIN, Michigan
TOM UDALL, New Mexico                DIANNE FEINSTEIN, California
TIMOTHY J. WALZ, Minnesota           SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         SAM BROWNBACK, Kansas
JOSEPH R. PITTS, Pennsylvania        CHUCK HAGEL, Nebraska
EDWARD R. ROYCE, California          GORDON H. SMITH, Oregon
CHRISTOPHER H. SMITH, New Jersey     MEL MARTINEZ, Florida

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                CHRISTOPHER R. HILL, Department of State
                 HOWARD M. RADZELY, Department of Labor

                      Douglas Grob, Staff Director

               Murray Scot Tanner, Deputy Staff Director

                                  (ii)
               Rights of Criminal Suspects and Defendants


                              INTRODUCTION


    Since 2001, the Commission has been monitoring the 
development of human rights and the rule of law in China. The 
Commission's legislative mandate calls for scrutiny of Chinese 
government actions that either comply with or violate the 
fundamental human rights enjoyed by all individuals, including 
those individuals accused of a crime under China's domestic 
laws. The mandate calls specifically for the monitoring of 
criminal defendants' rights, 
including the right to be tried in one's own presence; to 
defend oneself in person or through legal assistance; to be 
informed of the 
opportunity for trial and criminal defense; to receive legal 
aid services where necessary; to be afforded a fair and public 
hearing by a competent, independent, and impartial tribunal; to 
be presumed innocent until proven guilty; and to be tried 
without undue delay.\1\ In addition, the mandate requires that 
the Commission focus continuing attention on those individuals 
believed to be imprisoned, detained, placed under house arrest, 
tortured, or otherwise persecuted by Chinese government 
officials in retaliation for the mere pursuit of their 
rights.\2\
    The Commission's annual report recommendations over the 
past five years have focused on the gap between mere legal 
ideals and actual law enforcement practice. In 2002, 2004, and 
2006, the Commission underscored the continuing need to help 
fund and strengthen the work of criminal defense lawyers in 
China. In 2003, and again in 2006, the Commission emphasized 
that the detention and imprisonment of activists and rights 
defenders only serve to undermine the legitimacy of China's 
developing legal system. It thus called for the need to press 
for release of targeted individuals. Between 2002 and 2004, the 
Commission underscored the significance of multilateral and 
diplomatic efforts in encouraging the Chinese government to 
grant unconditional visits to the UN Working Group on Arbitrary 
Detention and the UN Special Rapporteur on Torture.\3\ Based on 
the findings of those UN bodies, the Commission focused in 2006 
on the urgency of reforming China's administrative detention 
system, abolishing forced labor practices, and 
ensuring that the procuracy exercise greater oversight over 
police abuses.
    Domestic and international developments in 2006 have helped 
to highlight the Chinese leadership's desire to increase 
China's profile among the international community of rule of 
law nations. China was elected to serve for a three-year term 
on the newly established UN Human Rights Council, noting in its 
application that it had acceded to 22 international human 
rights accords, including 5 of the 7 core conventions.\4\ The 
Chinese government promised that it would amend its Criminal, 
Civil, and Administrative Procedure Laws, as well as reform its 
judiciary, in preparation for ratification of the International 
Covenant on Civil and Political Rights.\5\ In addition, Chinese 
citizens were appointed to lead international bodies such as 
the International Association of Anti-Corruption Authorities 
and the World Health Organization.\6\
    While the Commission recognizes the progress that China has 
made in bringing its own practices into compliance with 
international standards, it also notes that significant gaps 
remain within Chinese laws and regulations, and between law on 
the books and law in action. The ideals embodied in recent 
legal and regulatory reforms are positive first steps, but 
nonetheless incomplete, and have not necessarily translated 
into the everyday practice of local law enforcement officers. 
For example, international human rights standards require that 
due process of law be accorded to all criminal suspects and 
defendants, and that they be free from torture, arbitrary 
detention, and prosecution on the basis of their political 
opinions or exercise of human rights.\7\ Nonetheless, China's 
Criminal Law, Criminal Procedure Law, and accompanying 
regulations leave too much room for discretion and abuse. As a 
result, NGO and media reports indicate that criminal defense 
efforts have been hampered, numerous Chinese citizens continue 
to be arbitrarily detained and convicted, and torture remains 
widespread.
    The Commission's findings in this section have been placed 
in the context of five years of monitoring and reporting on 
criminal justice reform, and take into account some of the 
systemic problems that have persisted throughout China during 
that timeframe. In many areas of criminal procedure, reforms 
that were initiated several years ago have stalled in the past 
year, and failed to achieve the goals of better protecting 
human rights and guarding against official abuse. The problems 
that persist, and the reforms designed to confront those 
problems, are analyzed in greater detail throughout the 
remainder of this section. The first part of the section 
discusses continuing abuses of criminal law and procedure, 
while the second part turns to institutional failings that make 
these abuses possible.


          LAW IN ACTION: ABUSES OF CRIMINAL LAW AND PROCEDURE


                          Arbitrary Detention

    The UN Working Group on Arbitrary Detention (UNWGAD) 
defines the deprivation of personal liberty to be ``arbitrary'' 
if it meets one of the following criteria:

        <bullet>  there is clearly no legal basis for the 
        deprivation of liberty;
        <bullet>  an individual is deprived of his liberty 
        because he has exercised rights and freedoms guaranteed 
        under the Universal Declaration of Human Rights (UDHR) 
        or International Covenant on Civil and Political Rights 
        (ICCPR); or
        <bullet>  non-compliance with the standards for a fair 
        trial set out in the UDHR and other relevant 
        international instruments is sufficiently grave to make 
        the detention arbitrary.\8\

    The ICCPR provides that the deprivation of an individual's 
liberty is permissible only ``on such grounds and in accordance 
with such procedure as are established by law,'' and that an 
individual must be promptly informed of the reasons for his 
detention and any charges against him.\9\
    Arbitrary detention in China takes several different forms, 
including detention and incarceration for the peaceful 
expression of civil and political rights, detention and 
incarceration in circumvention of criminal procedure 
protections, and illegal extended detention in violation of 
China's own Criminal Procedure Law.
Political Crimes
    China's Criminal Law was revised by the National People's 
Congress in 1997 to eliminate mention of the socialist 
revolution and counterrevolutionary crimes, but to otherwise 
preserve the political and economic orientation of the Chinese 
criminal justice system:

        The aim of the Criminal Law of the People's Republic of 
        China is to use criminal punishments to fight against 
        all criminal acts in order to safeguard security of the 
        State, to defend the State power of the people's 
        democratic dictatorship and the socialist system, to 
        protect property owned by the State, and property 
        collectively owned by the working people and property 
        privately owned by citizens, to protect citizens' 
        rights of the person and their democratic and other 
        rights, to maintain public and economic order, and to 
        ensure the smooth progress of socialist 
        construction.\10\

    Nonetheless, Chinese prisons continue to hold individuals 
who were sentenced for counterrevolutionary and other crimes 
that no longer exist under the current Criminal Law.\11\ 
Shortly preceding the annual session of the UN Human Rights 
Commission in 2005,\12\ Chinese central government officials 
pledged to ``provide relief'' to those imprisoned for political 
acts that were no longer crimes under the law.\13\ The U.S. 
State Department reported that in 2006, despite the urging of 
foreign governments, the Chinese government had yet to conduct 
a national review of such cases and continued to hold 
approximately 500 individuals in prison for 
counterrevolutionary crimes alone.\14\
    Developments over the last year have breathed new life into 
this issue. The Dui Hua Foundation, which researches and seeks 
to curb political imprisonment, recently confirmed that on 
November 11, 2007, Chinese authorities will release one of the 
last known prisoners serving a sentence for the former crime of 
``hooliganism.'' \15\ Authorities originally detained Li 
Weihong, a manufacturing worker in Changsha city, Hunan 
province, in April 1989 for helping to organize protests that 
subsequently turned 
violent. In February 2006, authorities released journalist Yu 
Dongyue, who was detained for throwing paint during the 
Tiananmen democracy protests of 1989 and later convicted of 
``counterrevolutionary propaganda'' and ``counterrevolutionary 
sabotage and incitement.'' \16\ Numerous others remain in 
prison for counterrevolutionary crimes, including: Hu Shigen, 
who helped to establish the China Free Trade Union Preparatory 
Committee and China Freedom and Democracy Party, and was later 
convicted of ``organizing and leading a counterrevolutionary 
group'' and ``engaging in counterrevolutionary propaganda and 
incitement'' \17\ [see Section II--Worker Rights for additional 
information about his case]; and former Tibetan monk Jigme 
Gyatso, who was detained for distributing pro-independence 
leaflets and putting up posters and later convicted of 
``forming a counterrevolutionary organization'' \18\ [see 
Section IV--Tibet for additional information about his case].
    The Chinese central government officially maintains that 
there are no ``political prisoners'' in China, but ample 
evidence suggests that the Criminal Law is routinely abused to 
target and imprison individuals for their political opinions or 
the exercise of their fundamental human rights. China's 
official position on this issue has remained the same since 
1991, when the State Council Information Office issued its 
first white paper on human rights: ``In China, ideas alone, in 
the absence of action which violates the criminal law, do not 
constitute a crime; nobody will be sentenced to punishment 
merely because he holds dissenting political views.'' \19\ 
However, since 2002, the Commission has reported on the 
repeated 
harassment, detention, and imprisonment of political 
dissidents, journalists, writers, lawyers, human rights 
defenders, Protestants, Catholics, Falun Gong practitioners, 
Tibetans, and Uighurs, among other groups. Many of these 
individuals continue to serve long prison or reeducation 
through labor sentences as a result of their peaceful exercise 
of fundamental rights guaranteed under China's Constitution, 
the UDHR, and the ICCPR.\20\
    The ability of local law enforcement officers to target and 
punish these individuals is made possible, in large part, by 
the existence of vague criminal and administrative provisions, 
which allow for the punishment of activists for crimes of 
``disturbing public order'' and ``endangering state security.'' 
\21\ Over the past five years, the Commission has reported on 
numerous instances in which these two categories of crimes have 
been used to charge and convict individuals for their politics, 
beliefs, and affiliations.\22\ After a 2004 visit to China, the 
UN Working Group on Arbitrary Detention (UNWGAD) recommended 
that the Chinese government define these crimes in precise 
terms and create exceptions under the Criminal Law for peaceful 
activity in the exercise of fundamental rights guaranteed by 
the UDHR.\23\ In his March 2006 report to the UN, Special 
Rapporteur on Torture Manfred Nowak noted that to date, 
UNWGAD's recommendation has not been implemented.\24\ He 
further concluded: ``The vague definition of these crimes 
leaves their application open to abuse particularly of the 
rights to freedom of religion, speech, and assembly.'' \25\ In 
its 2006 Annual Report, the Commission echoed these 
international calls for greater clarity in the definition of 
such crimes under Chinese law. No progress has been made on 
this front.
    The reality is that Chinese citizens remain susceptible to 
detention and incarceration as punishment for political 
opposition to the government, as well as for exercising or 
advocating human rights. China's leaders say that they are 
committed to building a fair and just society based on the rule 
of law, with adequate guarantee of civil and political rights. 
In order to demonstrate true commitment to these claims, 
China's leaders need to ensure the prompt review of cases in 
which an individual was charged with counterrevolutionary 
crimes. They have already set a precedent for doing so, by 
resolving and releasing one of the last known prisoners serving 
a sentence for hooliganism, another crime eliminated by the 
1997 revision to the Criminal Law. Logical next steps would 
include taking prompt action to clarify the Criminal Law's 
vague definitions of crimes that ``disturb public order'' or 
``endanger state security,'' and providing for the parole or 
immediate release of all political prisoners.
Detention Outside the Criminal Process
    Chinese law enforcement officers routinely detain 
individuals without formal charge or judicial review, in 
contravention of international human rights standards and 
Chinese law. Both the UDHR and ICCPR provide that everyone is 
entitled to a ``fair and public hearing'' by an ``independent 
and impartial tribunal,'' and that the accused shall enjoy 
``the right to be presumed innocent until proved guilty 
according to law.'' \26\ These guarantees have been 
incorporated into China's Criminal Procedure Law (CPL) and 
related regulations. Nevertheless, public and state security 
officials regularly authorize mass security sweeps and take 
advantage of law 
enforcement tools that include incommunicado detention, 
surveillance, house arrest, and administrative detention 
measures such as reeducation through labor, to harass and 
control Chinese citizens.
    In some instances, police hold individuals in custody for a 
few days before ultimately releasing them, without any 
justification other than a general desire to avoid protests and 
other instances of social unrest that might undermine Party 
governance. The CPL permits detention without arrest or charge, 
but generally requires notification of family members or the 
detainee's workplace within 24 hours of custody.\27\ Public 
security officials have been known to conduct mass security 
sweeps during politically sensitive periods in China, including 
the approach of significant public anniversaries, the annual 
sessions of Party or central government officials, and the 
duration of visits by foreign dignitaries.\28\ Citizens from 
localities throughout China travel to Beijing to voice their 
complaints before central government offices, often 
congregating together in ``petitioners' villages'' on the 
city's outskirts. [See Section III--Access to Justice for a 
discussion of petitioning]. NGO and media sources have reported 
that police officers conduct night raids of these villages, 
sending petitioners to a special holding location called 
``Majialou'' pending their forced repatriation home.\29\ In 
2006, a senior official from the Ministry of Public Security 
justified such security sweeps on the basis of the government's 
need to ``manage public order'' and to ``reduce some of the 
factors threatening social stability.'' \30\
    In March 2007, officials launched ``the largest `clean-up' 
operation by the police in recent years'' and detained over 700 
individuals.\31\ According to Human Rights Watch (HRW), the 
detentions of more than 700 individuals in advance of this 
year's session of the National People's Congress were ``widely 
seen as a grand rehearsal in public order tactics for two even 
more important upcoming events: the Communist Party's 17th 
Congress in October 2007 and the Olympics Games in 2008.'' On 
August 30, officials posted notice of imminent plans to 
demolish an area bordering the southern railway station in 
Beijing, where an estimated 3,000 to 4,000 petitioners 
congregate.\32\ The notice provides a three-week deadline for 
relocation and attributes the timing of the demolition to 
planned road construction, but HRW asserts that it may also be 
the result of the ``clean-up'' in advance of the Party 
Congress.\33\
    In other instances, Chinese law enforcement officers have 
relied on measures such as surveillance and house arrest\34\ to 
punish and control political activists, despite the lack of any 
legal basis for such deprivations of liberty. Brad Adams, 
Director of HRW's Asia Division, has commented that house 
arrest is becoming ``the weapon of choice for the authorities 
in silencing and repressing civil rights activists.'' \35\ He 
added, ``It is imposed at the entire discretion of the police 
and takes place outside of any legal procedure--you can't get 
more arbitrary than that.'' The case of Chen Guangcheng, a 
legal advocate who exposed and challenged the abuses of local 
population planning officials in Linyi city, Shandong province, 
provides one concrete example to support HRW's analysis. Public 
security officials at the county level placed Chen under house 
arrest in September 2005, one year before authorities 
ultimately charged and convicted him.\36\ A network of Chinese 
human rights activists and groups worked with Chen's defense 
lawyers to submit information about his case to the UNWGAD, the 
UN Special Rapporteur on the Independence of Judges and 
Lawyers, and the Special Representative of the Secretary 
General for Human Rights Defenders.\37\ Around the time of 
Chen's retrial on November 27, 2006, the same public security 
officials issued a formal decision to place Chen's wife, Yuan 
Weijing, under house arrest from November 28, 2006 until May 
27, 2007.\38\ Despite the expiration date made explicit in this 
order, security officers reportedly obstructed Yuan's attempts 
to meet with U.S. Embassy officials in July 2007 and prevented 
her from exiting the country in August to receive an award on 
behalf of her husband.\39\
    In cases where there is insufficient evidence to proceed 
with formal prosecution,\40\ or it is expedient for the local 
government to keep watch over an activist for up to several 
years,\41\ public security officials have taken advantage of 
their power to punish Chinese citizens through administrative 
sanction. Chinese law allows for punishment that includes 
``administrative,'' rather than criminal, detention of 
individuals who have been accused of ``public security'' 
offenses such as public order disturbances, traffic offenses, 
prostitution, and other ``minor crimes'' under the Criminal 
Law.\42\ Pursuant to the Public Security Administration 
Punishment Law (PSAPL), effective March 1, 2006, public 
security officials can impose sanctions ranging from a warning 
or fine, to a maximum of 20 days in administrative 
detention.\43\ A total of 165 offenses, including ``taking on 
the name of religion or qigong to carry out activities 
disturbing public order,'' \44\ are subject to sanctions under 
the PSAPL. In November 2006, three house church Christians in 
Wendeng city, Shandong province, succeeded in forcing the local 
public security bureau (PSB) to rescind its decision to hold 
them in administrative detention for 10 days for allegedly 
committing this particular offense under the PSAPL.\45\ Their 
success was attributable to the PSB's willingness to reach an 
out-of-court settlement and therefore avoid the issue of 
whether the detention had violated their constitutional and 
legal rights.\46\ [See Section II--Freedom of Religion--
Religious Freedom for China's Protestants for a more detailed 
analysis of efforts to defend religious rights.] Li Baiguang, 
who represented the three, agreed to drop the administrative 
complaint that he had filed on October 12 against the PSB in 
exchange for its promise to rescind the decision.\47\
    China's system of ``reeducation through labor'' (RTL) has 
long drawn fire from various members of the international 
community as the most egregious abuse of administrative 
detention measures. Under the RTL system, public security 
officials can investigate a case and propose that an individual 
be confined to a RTL center for up to three years, with the 
possibility of a one-year extension.\48\ The list of offenses 
subject to RTL is broad and vaguely defined,\49\ lending itself 
to abuse by public security officials in order to silence 
Chinese citizens who attempt to express their political 
opinions or assert their fundamental rights.\50\ Moreover, the 
RTL administrative committees that are responsible for making 
the final decision consist of representatives from each of the 
local public security, civil affairs, and labor bureaus,\51\ 
but in practice, are dominated by public security 
officials.\52\ Despite being harsher than some criminal 
punishments,\53\ a RTL decision is typically imposed in the 
absence of judicial review by an independent and impartial 
tribunal.\54\ The Chinese government has argued that 
administrative detention decisions are subject to judicial 
review under the Administrative Litigation Law (ALL), but the 
UNWGAD found ALL review ``of very little value'' and maintained 
that ``no real judicial control has been created over the 
procedure to commit someone to [reeducation] through labor.'' 
\55\ In practice, the decision to confine someone to a RTL 
center is rarely successfully challenged.\56\ Between 1999 and 
2002, the number of individuals held in RTL centers was 
estimated to range from 260,000 to 300,000.\57\ According to 
the U.S. State Department, official statistics released in 2005 
reflect the rapid growth of these numbers over the past few 
years, to a new total of approximately 500,000.\58\
    Chinese authorities use RTL and other forms of 
administrative detention to circumvent the criminal process in 
a manner which disregards the procedural protections guaranteed 
under domestic and international law.\59\ China's Legislation 
Law requires that all deprivations of personal liberty be 
authorized by national law, and not just by administrative 
regulation.\60\ Under the criminal justice system, a Chinese 
citizen cannot be found guilty of any crime, even a ``minor 
crime,'' without being judged guilty by a people's court.\61\ 
The Constitution makes explicit the inviolable nature of a 
person's liberty and further dictates:

        No citizen may be arrested except with the approval or 
        by decision of a people's procuratorate or by decision 
        of a people's court, and arrests must be made by a 
        public security organ. Unlawful deprivation or 
        restriction of citizens' freedom of person by detention 
        or other means is prohibited. . . .\62\

    While the Chinese government consistently emphasizes the 
beneficial ``reeducation'' function of administrative detention 
measures,\63\ Manfred Nowak, UN Special Rapporteur on Torture, 
found after visiting China that ``some of these measures of 
[reeducation] through coercion, humiliation and punishment aim 
at altering the personality of detainees up to the point of 
even breaking their will.'' \64\ In his March 2006 report, 
Nowak concluded that RTL and other forms of administrative 
detention ``go beyond legitimate rehabilitation measures 
provided for in [A]rticle 10 of the ICCPR.'' \65\ During the 
seven years between visiting China in 1997 and again in 2004, 
the UNWGAD found that the Chinese government had made no 
significant progress in reforming the administrative 
detention system to ensure judicial review and to conform to 
international law.\66\
    Domestic pressure has been building to reform the RTL 
system,\67\ but efforts have focused on better codification, 
rather than outright elimination, of the practice. Since March 
2005, the National People's Congress (NPC) has been considering 
a new Law on the Correction of Unlawful Acts that would 
reportedly enhance the rights of RTL detainees by setting a 
maximum sentence of 18 months, and by permitting detainees to 
hire a lawyer, request a hearing, and appeal decisions imposed 
by public security officials in RTL cases.\68\ The draft law 
does not currently provide the accused with an opportunity to 
dispute accusations of guilt before an independent adjudicatory 
body.\69\ According to one drafter, the Ministry of Public 
Security and the Supreme People's Court continue to disagree 
about whether courts should get involved in the decision making 
process prior to administrative enforcement of a RTL 
decision.\70\ In an attempt to enhance the transparency of the 
process,\71\ Chongqing municipality recently issued Interim 
Provisions on Legal Representation in RTL Cases, which went 
into effect on April 1, 2007, and provide that a suspect may 
retain a lawyer to contest the legality of the process, access 
the files relevant to his case, and present proof of his 
innocence.\72\ The Interim Provisions mirror some of the 
criminal procedure protections contained in the CPL,\73\ and 
could potentially be incorporated into the draft law now 
pending before the NPC.\74\ While greater access to legal 
representation is a positive sign, some in China maintain that 
the RTL system as a whole still contradicts provisions in the 
Chinese Constitution, CPL, and ICCPR.\75\
Illegal Extended Detention in the Criminal Process
    In cases that enter the formal criminal process in China, 
public security, procuratorate, and court (collectively 
referred to as gongjianfa) officials continue to illegally 
detain Chinese citizens for long periods of time before 
determining the outcome of their cases. The National People's 
Congress (NPC) revised the Criminal Procedure Law (CPL) in 1996 
to impose fixed deadlines for the resolution of each stage of 
the criminal process.\76\ In 2003, the Supreme People's Court 
(SPC) took the lead by additionally issuing a notice to set 
time limits for the resolution of cases of extended detention 
in violation of the CPL.\77\ The Supreme People's Procuratorate 
(SPP) soon followed by passing regulations to prohibit the 
abuse of legal procedures in order to disguise extended 
detention.\78\ The SPC and SPP then worked together with the 
Ministry of Public Security (MPS) to issue a joint Notice on 
the Strict Enforcement of the Criminal Procedure Law, and on 
the Conscientious Correction and Prevention of Extended 
Detention.\79\ The launch of such a major public campaign to 
eliminate illegal extended detention tacitly signaled 
acknowledgment by the central government of law enforcement 
abuses throughout the country.
    Extended detention contravenes international standards for 
the prompt judicial review of a criminal detention or arrest. 
The ICCPR provides that ``[a]nyone arrested or detained on a 
criminal charge shall be brought promptly before a judge or 
other officer authorized by law to exercise judicial power,'' 
and that ``[a]nyone who is deprived of his liberty by arrest or 
detention shall be entitled to take proceedings before a court, 
in order that the court may decide without delay on the 
lawfulness of his detention and order his release if the 
detention is not lawful.'' \80\ In December 2004, the UNWGAD 
found that the CPL and related regulations on pretrial 
detention fail to meet these basic standards because: (1) 
Chinese suspects continue to be held for too long without 
judicial review; (2) procurators, who review arrest decisions, 
only examine case files and do not hold hearings; and (3) a 
procurator cannot be considered an independent adjudicator 
under applicable international standards.\81\
    International scrutiny of this problem over the last few 
years has led to a dramatic decrease in the number of extended 
detention cases reported by the Chinese government. In 1998, 
Chinese procuratorates identified and called for the resolution 
of extended detention cases involving 70,992 individuals.\82\ A 
white paper on the status of human rights in 2003 noted that 
extended detention cases involving 25,736 individuals had been 
resolved that year, accounting for a nationwide effort that was 
``the most extensive in scope, the biggest in scale and the 
largest in number of people 
involved in the nation's judicial experience.'' \83\ By 2004, 
central government officials reported that there were no cases 
of extended detention among public security bureaus or 
procuratorates, and that Chinese courts had cleared extended 
detention cases involving just 2,432 individuals.\84\ In 
January 2006, the Chinese government told Manfred Nowak, UN 
Special Rapporteur on Torture, that serious cases of extended 
detention lasting more than three years had been eliminated, 
and that the number of individuals held beyond time limits was 
at an all-time low.\85\ This claim was repeated again in March 
2007, when the SPP identified in its work report to the NPC an 
all-time low of just 233 individuals cleared from extended 
detention.\86\
    The continued decrease in cases of extended detention 
depends heavily on continued central government efforts to 
increase transparency and hold local law enforcement officials 
strictly accountable to the CPL. In May 2006, the SPP 
explicitly acknowledged that illegal extended detentions remain 
problematic, and that Chinese authorities misuse provisions in 
the CPL to disguise this problem.\87\ Several months later, SPC 
President Xiao Yang echoed this acknowledgement and stated in 
an interview with the People's Daily that ``delayed justice is 
a form of injustice.'' \88\ In March 2007, the Standing 
Committee of the National People's Congress (NPCSC) commented 
on the significance of oversight mechanisms in helping to 
tackle the problem of extended detention.\89\ SPP spokesman 
Dong Jianming has attributed the decrease in cases of extended 
detention to the NPCSC's push--and the resulting joint effort 
among gongjianfa officials nationwide.\90\ Gongjianfa officials 
have continued to work together to finalize new regulations 
seeking to further address the problem.\91\ In addition, 
China's unique system of ordinary citizens who function as 
``people's supervisors'' 
expanded its oversight powers in the last year, to guard 
against illegal extended detentions by all three 
institutions.\92\ This move holds great potential for enhanced 
public supervision of law enforcement agencies during the 
criminal process.

                      Torture and Abuse in Custody

    Although illegal in China, torture and abuse by law 
enforcement officers remain widespread.\93\ In March 2006, 
Manfred Nowak, UN Special Rapporteur on Torture, reported that 
Falun Gong practitioners make up the overwhelming majority of 
victims of alleged torture, and that other targeted groups 
include Uighurs, Tibetans, human rights defenders, and 
political activists.\94\ Over three-quarters of all alleged 
acts of torture take place in venues where public security 
officials have chosen to confine criminal suspects.\95\ Forty-
seven percent of alleged perpetrators are police or other 
public 
security officials, while 53 percent are either staff members 
at correctional facilities or fellow prisoners acting at the 
instigation or acquiescence of staff members.\96\ Forms of 
torture and abuse cited in Nowak's report include beating, 
electric shock, painful shackling of the limbs, denial of 
medical treatment and medication, and hard labor.\97\
    Chinese media reports in 2005 about the wrongful conviction 
of She Xianglin, and in 2006 about the wrongful detentions and 
torture of four teenagers in Chaohu city, Anhui province, help 
to shed light on numerous institutional and legal factors that 
are to blame for the continuing problem of torture in 
China.\98\ In both cases, authorities relied heavily on 
confessions obtained during interrogation as evidence of 
alleged crimes. She Xianglin, who was originally convicted of 
murder after the disappearance of his wife in 1994, was 
ultimately released in April 2005 after 11 years in prison and 
his wife's unexpected return to their village in Hubei 
province.\99\ The Chaohu teenagers, who ranged in age from 16 
to 18, were released in January 2006 after more than three 
months in police custody and further investigative efforts 
leading to the arrests of four other suspects.\100\ Both cases 
reflect a number of institutional hurdles at the heart of the 
torture issue, including pressure on public security bureaus to 
meet quotas for cracking down on crime, inadequate training and 
investigative tools, and the lack of independence and oversight 
exercised by the procuracy and judiciary.\101\ They also 
spotlight continuing legal challenges, including a strong 
presumption of guilt in criminal cases, the abuse of 
administrative detention measures, the absence of lawyers at 
interrogations, the lack of a rule requiring the exclusion of 
illegally acquired evidence, failure by procuratorates to 
prosecute torture cases, and inadequate complaint mechanisms.
    Since releasing China's Third Report on the Implementation 
of the Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment (CAT) in 2000,\102\ central 
government leaders have repeatedly emphasized their ongoing 
efforts to pass new laws and administrative regulations 
preventing, punishing, and compensating cases of torture by law 
enforcement 
officers.\103\ For example, China's Criminal Law provides for 
the punishment of judicial officers who coerce confessions 
under torture or acquire evidence through the use of force, and 
also imposes liability in particularly ``serious'' cases where 
police or other corrections officers have beaten or otherwise 
mistreated prisoners.\104\ In 2003, the Ministry of Public 
Security (MPS) issued a new regulation to also prohibit the use 
of torture as an investigative tool in administrative 
cases.\105\ The following year, the Party,\106\ MPS,\107\ and 
Supreme People's Procuratorate (SPP)\108\ each passed 
regulations to provide for Party or administrative sanction 
(including demerits, demotions, and dismissals) of officials 
who employ torture as an investigative tool to coerce 
confessions. The Ministry of Justice (MOJ) issued similar 
regulations in 2006 to provide for both administrative sanction 
and criminal investigation of prison and reeducation through 
labor (RTL) police who beat, or instigate others to beat, 
detainees.\109\ SPP regulations that went into effect on July 
26, 2006, provide detailed criteria for the criminal 
prosecution of police who abuse their power to hold individuals 
in custody beyond legal limits, coerce confessions under 
torture, acquire evidence through the use of force, mistreat 
prisoners, or retaliate against those who petition to, or file 
complaints against, the government.\110\
    Despite international safeguards and recent domestic 
reforms designed to help guard against torture in China, one 
China scholar has noted that ``persons acting in an official 
capacity who torture and ill-treat others in violation of the 
[CAT] generally do so with impunity.'' \111\ Two months after 
Xinhua and Southern Metropolitan Daily reports revealed the 
extent to which the Chaohu teenagers had been tortured while in 
custody,\112\ two senior SPP officials called on local 
procuratorates to strengthen their supervision over criminal 
investigations, and to bring into line police who extract 
confessions through torture or who illegally gather evidence. 
Deputy Procurator-General Wang Zhenchuan acknowledged that 
almost all wrongful convictions in China involve police abuses 
during the investigative stage,\113\ and Chen Lianfu, head of 
the SPP office that investigates official misconduct and rights 
infringement, reported that systemic reforms still had to be 
implemented.\114\ Neither provided statistics to detail the 
number of officials who had been prosecuted for torture in 
recent years, but SPP work reports submitted to the National 
People's Congress indicate that the number of officials 
investigated for civil rights abuses, including torture, 
totaled 1,983 in 2001, 1,408 in 2003, and 1,595 in 2004.\115\ 
This number dropped to 930 in 2006, the same year that the SPP 
released its regulations on filing rights abuse cases for 
prosecution.\116\ It is difficult to analyze how many Chinese 
officials go unpunished in any given year, particularly when 
the central government does not recognize the competence of the 
Committee against Torture to investigate allegations of 
systematic torture.\117\ According to Nowak, SPP figures ``are 
clearly the tip of the iceberg in a country the size of China 
and demonstrate that most victims and their families are 
reluctant to file complaints for fear of reprisal or lack of 
confidence that their complaints will be addressed 
effectively.'' \118\
    Law enforcement practices in China further provide for 
official impunity by failing to adequately criminalize non-
state actors who commit torture and abuse at the behest of 
state actors. Nowak pointed out that this omission is one 
reason that the Chinese 
definition of torture fails to correspond fully to the 
international standard as outlined in Article 1 of the 
CAT.\119\ The MOJ's 2006 regulations are illustrative of this 
point, and punish only prison and RTL police for beating, or 
instigating others to beat, detainees. They do not take into 
account the existing practice of ``fanren guanli fanren,'' 
whereby ``cell bosses'' take part in correctional facility 
administration by helping officials control and punish 
recalcitrants.\120\ Human Rights in China has noted that 
inmates who are assigned to supervise others ``are widely known 
in the system as `second-rank cadres,' or `the second 
government,' indicating their power in the system.'' \121\ 
Imprisoned legal advocate Chen Guangcheng told his wife that on 
June 16, 2007, six other inmates at Linyi Prison pushed him to 
the floor, and hit and kicked him hard, at the instigation of 
prison guards after he refused to have his head shaved.\122\ 
There is no indication that any prison guards have been 
investigated as a result of this incident. In June 2005, when 
fellow detainees beat to death a 15-year-old at the instigation 
of a detention center superintendent in Jingdezhen city, 
Jiangxi province, the local procuratorate indicted the 
superintendent only for ``abuse of power to accept bribes.'' 
\123\ A September 2004 article on the Web site of the Chinese 
People's Political Consultative Conference disclosed that 
between 2003 and 2004, over 20 ``prison bosses'' had been 
investigated in Guangshan county, Henan province, alone. The 
article called for elimination of the practice of ``fanren 
guanli fanren.'' \124\


         LAW ON THE BOOKS: JUDICIAL INSTITUTIONS AND CHALLENGES


             Social Unrest and Coercive Use of Police Power

    The Chinese government maintains a vast network of people's 
police, who are employed in state security bureaus, public 
security bureaus, prisons, reeducation through labor centers, 
procuratorates, and courts throughout the nation. Public 
security bureaus (PSBs) divide their police into separate 
categories of ``administrative personnel'' responsible for 
public security, transportation, residence and migration, 
border defense, customs and immigration, fire prevention, and 
management of information and Internet safety, and ``criminal 
personnel'' responsible for investigation of crimes. In 
addition, local PSBs employ personnel responsible for domestic 
security and protection (guobao), which sometimes has been used 
to justify the targeting and harassment of democracy activists, 
Falun Gong practitioners, and other dissidents.\125\ Official 
statistics recently disclosed that there were over 490,000 PSB 
police employed as police station personnel, 130,000 as 
community police officers, and 150,000 as criminal 
investigators as of early 2006.\126\
    Communist Party leaders have leaned heavily on the powers 
of the police in order to quell social unrest during the past 
few years, but earlier this year, top Ministry of Public 
Security (MPS) officials acknowledged the risks inherent in 
such a tactic. The MPS reported a rise in ``mass incidents,'' 
defined to include public demonstrations, protests, and riots 
over unresolved claims,\127\ from 58,000 in 2003 to 74,000 in 
2004.\128\ This figure dropped to about 27,500 in 2005, and 
23,000 in 2006, \129\ accompanied by an MPS denial of the 
existence of any inherent conflict between police and 
civilians.\130\ Notwithstanding the decrease in numbers and the 
accompanying MPS statement, there have been news reports of 
increasingly violent clashes between police and protesting 
villagers all over China. In December 2005, public security 
officials in Shanwei city, Guangdong province, brought in 
forces from the paramilitary People's Armed Police (PAP) to 
handle a protest by local villagers.\131\ The PAP opened fire 
onto the crowd, and some estimates placed the resulting death 
count at up to 20 villagers. At a national public security 
meeting convened in April 2007 in Xi'an city, Shaanxi province, 
Vice Minister of Public Security Liu Jinguo emphasized the need 
to avoid police mishandling of demonstrations and protests, and 
warned that such mishandling could ``aggravate the conflict and 
worsen the situation.'' \132\
    A number of Chinese lawyers and former law enforcement 
officers agree that no inherent conflict exists between police 
and civilians, but they also warn that abuse of the coercive 
power of the 
police may create new tensions. One commentator, who formerly 
taught at a public security vocational school in Zhejiang 
province, attributed clashes between police and civilians to 
the fact that ``Chinese police are policemen for the Party, not 
for the state.'' \133\ Another commentator, who served for 18 
years as a former police officer in Jiangsu province, added 
that in carrying out their law enforcement duties, the police 
do not carry out the laws of the state: ``They carry out the 
law neither pursuant to the Police Law, nor pursuant to various 
[other] laws, but instead pursuant to the will of senior Party 
officials.'' \134\ He added that the ability of PSB police to 
simultaneously carry out both police and ``non-police'' 
(namely, administrative) functions has contributed to their 
loss of legitimacy in the eyes of the public.
    Party and central government statements confirm that 
Chinese police forces are in fact required to assist in the 
advancement of Party priorities. A 2003 resolution passed by 
the Communist Party Central Committee (CPCC) establishes that 
``public security work must proceed under the Party's absolute 
leadership.'' \135\ At its sixth plenum in October 2006, the 
CPCC issued a communique to announce that ``the [Communist 
Party of China]'s role as the core leadership must be brought 
fully into play to build a harmonious socialist society.'' 
\136\ At the same plenum, the CPCC also passed a resolution 
calling on police and armed forces to further strengthen public 
security, state security, and national defense construction, in 
furtherance of a ``harmonious society.'' \137\ The resolution 
specifically called on the MPS to reform community police 
affairs so that a ``frontline platform'' could be created to 
service the masses and safeguard stability. Later that month, 
Xinhua identified construction of this ``frontline platform'' 
as a significant part of Public Security Minister Zhou 
Yongkang's 2006 plan to reorganize public 
security agencies and send more police forces out into local 
communities and villages.\138\ At a press conference in 
November, the MPS reported that it had issued a new Resolution 
on Implementing a Strategy for Community and Village Police 
Affairs, and had already set up more than 30,000 new police 
stations and dispatched more than 70,000 police officers to 
watch over villages nationwide.\139\ One senior official 
defined the new strategy for community and village police 
affairs to be one that would allow public security agencies to 
``deeply integrate'' into local communities, families, and 
schools, and ``merge into one with the people,'' \140\ in the 
name of safeguarding public security and order, as mandated by 
the Party.
    Last year's implementation of the Public Security 
Administration Punishment Law (PSAPL)\141\ helps expand the 
legal authority of PSB police to almost every realm of civilian 
life, creating new cause for concern about police abuses and 
domination over the general populace. [See Section II--Freedom 
of Expression for additional discussion of abuse of the PSAPL 
to exercise control over the sharing of information.] One month 
after the law went into effect, police reportedly filed over 
35,000 cases, leading to the investigations of over 40,000 
individuals, warnings or fines issued to over 16,000, and 
administrative detention of over 7,000 in Beijing alone.\142\ 
In a July 2006 article that asks ``Why Some Police Resemble 
Crime Bosses,'' a China Youth Daily journalist comments: ``If 
detention and other criminal investigation measures are used in 
the administration of public security cases, while public 
security aspects of the [police] power are brought into 
criminal investigations, then objectively, this creates a self-
perception among some police that they are boss.'' \143\ The 
article asserts that there is a certain pervasiveness to abuse 
of power by the police, and that it can best be blamed on their 
unchecked legal authority. In March 2007, a Shenzhen delegate 
to the National People's Congress proposed revising the PSAPL 
to further expand the authority of the police to detain 
individuals for disruption of city management.\144\ Under his 
proposal, individuals would be at the mercy of the police for 
such minor offenses as running an unlicensed business or health 
clinic. Within months, the China Media Project, based across 
the border from Shenzhen in Hong Kong, questioned whether 
Chinese police aren't already ``over-reaching'' in their 
application of the PSAPL.\145\
    Supervision over China's police forces has not improved in 
the last year, particularly when taking into account the 
concerns previously expressed by this Commission. The 
Commission noted in last year's annual report: ``The government 
does not encourage external supervision over police affairs or 
prosecution of police abuses by the procuratorate, as mandated 
by law.'' \146\ While the MPS continues to disclose the number 
of police officers who have been disciplined or even dismissed 
for improprieties, their sanctions are still decided and 
administered internally, by Party or MPS superiors.\147\ One 
prominent Beijing law professor argues that the increasingly 
vicious nature of the police is attributable to this lack of 
meaningful constraints either externally or internally.\148\ In 
February 2006, the Procuratorial Daily published an article 
that recognized the lack of power exercised by lawyers and 
courts during the investigative stage of the criminal process, 
and highlighted the urgency of greater procuratorate 
supervision as the only means for reining in the police.\149\

            Access to Counsel and Right to Present a Defense

    Most Chinese defendants go through the criminal process and 
are tried without assistance from an attorney, despite 
guarantees under Article 14(3)(d) of the International Covenant 
on Civil and Political Rights (ICCPR).\150\ In 2006, domestic 
media sources reported the continuing growth of China's legal 
profession to over 150,000 attorneys and 12,000 law firms 
nationwide.\151\ The Chinese government requires that public 
security bureaus and procuratorates notify all criminal 
defendants of their right to apply for legal aid,\152\ and also 
mandates that all practicing attorneys undertake the duty of 
legal aid.\153\ Nonetheless, the number of criminal cases 
handled per lawyer in a city like Beijing, one of China's most 
legally advanced locales, fell from 2.64 in 1994 to 0.78 in 
2004.\154\ The Commission noted in 2003 and 2004 that only one 
in three criminal defendants have access to legal counsel. This 
number fell to about 30 percent in 2005 and 2006, and has 
continued to drop.\155\ China's legal system therefore makes 
possible, but does not guarantee, the fundamental right to 
legal assistance in defending oneself against the state.\156\
    The ability to present a defense is further limited in 
China because of constraints on the role that criminal defense 
lawyers may play. Lawyers have long complained about the 
``three difficulties'' that they face in criminal defense work: 
(1) the difficulty in obtaining permission to meet with a 
client, (2) the difficulty in accessing and reviewing the 
prosecution's evidence, and (3) the difficulty in gathering 
evidence in support of the defense. The Commission has reported 
on multiple cases in which law enforcement officers abused 
their discretion to deny a defendant access to his lawyer, 
noting in particular abuse of the ``state secrets'' 
exception.\157\ [See Section II--Freedom of Expression for more 
information on abuse of ``state secrets'' law.] U.S. permanent 
resident Yang Jianli,\158\ democracy activist Xu Wanping,\159\ 
and freelance writer Yang Tongyan\160\ (who uses the pen name 
Yang Tianshui) were all denied access to their defense lawyers 
on the grounds that their cases involved state secrets. In 
addition, Chinese law authorizes law enforcement officials to 
obtain evidence from concerned parties, but provides that 
evidence involving state secrets ``shall be kept 
confidential.'' \161\ This effectively shields public security 
and procuratorate authorities from having to turn over to the 
defense any evidence they deem to be classified. In 2004, the 
UN Working Group on Arbitrary Detention identified China's use 
of the ``state secrets'' exception as one area of particular 
concern.\162\ In April 2007, the All China Lawyers Association 
(ACLA) released its first draft proposal for a new revision of 
the Criminal Procedure Law, and took special note in its 
executive summary of the need to eliminate these ``three 
difficulties'' in criminal defense work.\163\
    Chinese defendants remain vulnerable to official abuses and 
faced mounting challenges to the defense of their legally 
protected rights during the past two years, as lawyers in 
general were increasingly called upon to contribute to the 
Party's efforts to build a ``harmonious society.'' This new 
role was first clarified in ACLA's 2006 guiding opinion, which 
the Commission analyzed as an effort to restrict and punish 
lawyers who choose to handle collective cases without 
authorization.\164\ In its December 2006 report on the effects 
of this guiding opinion, Human Rights Watch (HRW) asserted that 
the opinion ``fundamentally harm[s] the entire profession by 
limiting its independence and legitimizing the interference of 
local governments in professional processes.'' \165\ HRW 
further noted, ``It is not the role of lawyers to protect 
social and political stability,'' but that instead, ``[t]heir 
duty is to represent their clients in an ethical and 
professional manner.'' \166\ ACLA's guiding opinion effectively 
calls on China's legal profession to function in the interests 
of the Party and state, a demand that conflicts with a lawyer's 
duty to his client in criminal cases. The opinion calls into 
question ACLA's ability to operate as a self-governing 
professional association that works in the interests of Chinese 
lawyers, without external interference. In the wake of its 
issuance, a group of Beijing law professors and practicing 
lawyers held a seminar to voice their concerns. Renowned lawyer 
Zhang Sizhi, former ACLA president, criticized the guiding 
opinion as retrogressive and warned that it would set the 
country's legal profession back several decades to the 
1980s.\167\
    The foregoing problems are made worse by the fact that it 
is increasingly dangerous for Chinese defense lawyers to carry 
out their work, especially in high-profile or politically 
sensitive cases. Law enforcement officials sometimes resort to 
intimidating lawyers who defend these cases, charging or 
threatening to charge them with crimes such as ``evidence 
fabrication'' under Article 306 of the Criminal Law.\168\ 
Despite official recognition of the chilling effect that such 
tactics have had on criminal defense work,\169\ as well as 
indications that Article 306 would be repealed,\170\ this 
problem persists and has become more damaging to China's legal 
system in the face of unchecked police power.\171\
    In May 2007, the Network of Chinese Human Rights Defenders 
(CRD) published a report on ``The Perils of Defending Rights'' 
and included information on 20 ``endangered defense lawyers.'' 
\172\ This list included all of the defense lawyers that the 
Commission reported on in 2006.\173\ The Hong Kong-based China 
Human Rights Lawyers Concern Group issued an open letter to 
President Hu Jintao and Premier Wen Jiabao, dated June 22, 
2007, to demand an end to the crackdown on defense lawyers and 
human rights activists.\174\ The letter points to the ongoing 
harassment, targeting, and criminal cases of Gao Zhisheng, Chen 
Guangcheng, Yang Maodong (who uses the pen name Guo Feixiong), 
and Zheng Enchong as representative of that crackdown. In the 
weeks preceding publication of this report, authorities stepped 
up their campaign against those lawyers not already in official 
custody. Gao, who has been living on the outside since his 
three-year prison sentence was suspended in December 2006 for a 
period of five years,\175\ went missing immediately after an 
open letter that he sent to the U.S. Congress was made public 
at a Capitol Hill press conference on September 20, 2007.\176\ 
Zheng, who was released from prison in June 2006 and had his 
political rights reinstated in June 2007,\177\ was taken into 
custody for interrogation as recently as September 29, 2007, 
for his potential involvement in sending an open letter to the 
United Nations.\178\ Chen Guangcheng remains in prison, serving 
out his sentence of four years and three months for destruction 
of property and gathering crowds to disturb traffic order. As 
of the date of this report, Yang Maodong has been in detention 
for one year without any resolution to his criminal case.


------------------------------------------------------------------------
                 Continued Crackdown on Rights Defenders
-------------------------------------------------------------------------
The UN High Commissioner for Human Rights defines a ``human rights
 defender'' as someone who acts on behalf of individuals or groups to
 promote and protect civil and political rights, and to promote,
 protect, and realize economic, social, and cultural rights. This
 definition includes those who focus on good governance and advocate
 peacefully for an end to government abuses of power.
In 2006-2007, local government officials in China continued to target
 for repression human rights defenders and others who turned to the law
 to defend their constitutionally protected rights. Harassment of the
 following high-profile lawyers and legal advocates intensified:

Chen Guangcheng
Current location: Linyi Prison.
Current status: Serving a sentence of four years and three months in
 prison for ``intentional destruction of property'' and ``gathering
 people to disturb traffic order.'' Reportedly beaten in June 2007 by
 fellow inmates, at the behest of prison guards.
Profession and/or activity: Drew international attention in 2005 to
 population planning abuses in Linyi city, Shandong province. Issued a
 report that documented the extensive use of violence by local officials
 in order to implement population planning policies, and assisted in a
 lawsuit that sought to challenge those abuses.
Associations:
  <bullet> Yuan Weijing (Chen's wife and the mother of their two small
   children): Under house arrest from November 28, 2006 to May 27, 2007.
   Prevented from meeting with U.S. Embassy officials in July, and from
   leaving the country to receive an award on her husband's behalf in
   August.
  <bullet> Hu Jia, Zeng Jinyan (activist couple who have befriended and
   spoken out on behalf of Chen and his wife): Prevented from leaving
   the country for travels in May 2007. Reportedly under house arrest,
   under suspicion of endangering state security.

Gao Zhisheng
Current location: Unknown.
Current status: Released from official custody on December 22, 2006 to
 serve a three-year prison sentence, suspended for five years, for the
 crime of ``inciting subversion of state power.'' Went missing
 immediately after his open letter to the U.S. Congress was made public
 at a press conference on Capitol Hill on September 20, 2007.
Profession and/or activity: Founder of the Beijing Shengzhi Law Firm and
 criminal defense lawyer who has represented numerous activists,
 religious leaders, and writers. Law firm was shut down in November
 2005, several weeks after he issued an open letter to President Hu
 Jintao and Premier Wen Jiabao to expose reports of widespread torture
 against Falun Gong practitioners.
Associations:
  Geng He (Gao's wife and the mother of their two children): Under
   constant police surveillance since August 2006, and reportedly beaten
   by plainclothes police officers in late-November.
   Li Heping (Gao's friend and fellow Beijing lawyer and rights
   defender): Reportedly beaten on September 29, 2007 and told to leave
   Beijing immediately. Returned home to discover that some of his legal
   files and his license to practice law were missing.
  Guo Feixiong (Gao's colleague at the Beijing Shengzhi Law Firm): See
   below.

Yang Maodong (pen name: Guo Feixiong)
Current location: Guangzhou No. 3 Detention Center.
Current status: In official custody since September 14, 2006,
 transferred back and forth between Shenyang city, in Liaoning province,
 and Guangzhou city, in Guangdong province. Reportedly tortured while in
 detention in Shenyang. Ultimately put on trial on July 9, 2007 for
 ``illegal operation of a business,'' in connection with a book that he
 edited about a political scandal in Shenyang. Still awaiting final
 judgment on his case.
Profession and/or activity: Previously detained for three months in late
 2005, after he advised villagers in Taishi, Guangdong, on their recall
 campaign against an allegedly corrupt village committee head.

Zheng Enchong
Current location: Shanghai.
Current status: Released from Tilanqiao Prison in Shanghai municipality
 on June 5, 2006, upon expiration of a three-year prison sentence for
 ``illegally providing state secrets to entities outside of China.''
 Passport application denied; prevented from visiting Hong Kong in
 August 2007. Taken into custody for interrogation as recently as
 September 29, 2007, for alleged involvement in putting together an open
 letter to the United Nations.
Profession and/or activity: Criminal defense lawyer whose license to
 practice law was revoked in 2001, after he advised more than 500
 households displaced by Shanghai's urban redevelopment projects.
Associations:
  Guo Guoting (one of Zheng's criminal defense lawyers): License to
   practice law revoked in early 2005. Placed under house arrest for
   ``adopting positions and making statements contrary to the law and
   the Constitution.'' Ultimately forced into exile.
------------------------------------------------------------------------

                      Fairness of Criminal Trials

    Over the past few years, Chinese courts have maintained a 
consistent conviction rate above 99 percent,\179\ due in part 
to the lack of fairness of criminal trials and the routine 
failure to comply with standards set forth under Article 14(1) 
of the International Covenant on Civil and Political Rights 
(ICCPR).\180\ China's criminal justice system is strongly 
biased toward a presumption of guilt, particularly in cases 
that are high-profile or politically sensitive.\181\ Trial 
courts are required by law to conduct their proceedings in 
public, but can also resort to the ``state secrets'' exception 
and conduct politically charged trials as they see fit,\182\ 
behind closed doors and thus shielded from public scrutiny. 
Court officials have in the past also denied requests by U.S. 
embassy and consular officers to attend the criminal trials of 
certain political, legal, and religious activists, including 
the August 2003 trial of U.S. permanent resident Yang Jianli 
and the November 2005 trial of Protestant house church leader 
Cai Zhuohua. Yang was released on April 27, 2007, after serving 
a five-year prison sentence for alleged espionage and illegal 
border crossing.\183\ Cai was released on September 10, 2007, 
upon the completion of his three-year prison sentence for 
printing and giving away Bibles and other religious literature 
without government permission.\184\ In June 2007, the Supreme 
People's Court (SPC) issued several opinions aimed at improving 
trial adjudication throughout China, and called on local courts 
to carry out trial proceedings lawfully, promptly, and 
transparently.\185\ Nonetheless, the opinions keep intact the 
``state secrets'' exception.
    Chinese courts rely heavily on the defendant's confession 
and on pretrial witness statements to judge guilt or innocence, 
even though provisions in the Criminal Procedure Law (CPL) 
explicitly prohibit this.\186\ In 2005 and 2006, the Commission 
reported on several wrongful convictions that had been decided 
on the basis of confessions and pretrial statements only, and 
were later reversed.\187\ In the wake of She Xianglin's 
wrongful conviction, a Xinhua article provided the following 
quote from his lawyer: ``Throughout the case, with the 
exception of She Xianglin's own confession, there was neither 
any evidence nor witnesses to prove that [Mr.] She had killed 
someone.'' \188\ Illegally obtained evidence, such as a 
confession coerced under torture, is not currently excludable 
under the CPL, and about 95 percent of witnesses fail to 
appear in court to corroborate their pretrial statements. In 
the executive summary to its draft proposal for a new CPL, the 
All China Lawyers Association (ACLA) emphasized the adversarial 
nature of the criminal justice system, and urged a greater 
balance between what the prosecution and defense are allowed to 
present as evidence in support of their case.\189\ ACLA's 
proposal insists that the CPL be revised to clarify the 
procedures for excluding illegally obtained evidence. In 
addition, it urges that courts be granted the legal authority 
to subpoena witnesses, noting that without this authority, a 
criminal defendant is deprived of his ability to confront 
witnesses and therefore present a proper defense.
    The SPC made criminal justice reform one of its top 
priorities for the 2004 to 2008 period, but court reforms must 
proceed in the larger context of a biased judiciary in China. 
The SPC's most recent five-year court reform program provides 
that greater procedural protections be afforded to criminal 
defendants facing the death penalty, and that officials reject 
the use of illegally obtained evidence and adopt the principle 
of a presumption of innocence.\190\ The program also addresses 
some of the institutional problems facing the judiciary 
generally, but it does not change basic Party control over the 
courts. In fact, the program makes clear that courts are also 
expected to strive toward the Party's ultimate goal of building 
a ``harmonious society.'' Numerous structural constraints and 
internal practices therefore continue to limit the independence 
of Chinese courts and judges. In the Xinhua article on She 
Xianglin's case, one judge commented that the court 
responsibility system for wrongly decided cases, which has been 
used to discipline judges for cases overturned or altered on 
appeal, in fact increases the pressure felt by judges and 
causes them to decide cases in a way that takes into account 
various external factors.\191\ Moreover, senior court officials 
and Party political-legal committees continue to influence 
judicial decisionmaking, particularly in sensitive or important 
criminal cases.\192\ At present, the Chinese judiciary is 
therefore restricted in its ability to function as a 
transparent, impartial, and independent part of the legal 
system, and therefore, as a body capable of ensuring the full 
protection of defendants' rights.

     Death Penalty Review and Regulations Against Organ Harvesting

    Chinese criminal law includes 68 capital offenses, over 
half of which are nonviolent crimes such as tax evasion, 
bribery, and embezzlement.\193\ In recent years, China's 
central government leadership has adopted an ``execute fewer, 
execute cautiously'' policy, but the government publishes no 
official statistics on the number of executions and reportedly 
considers this figure a state secret.\194\ Some Chinese sources 
estimate that the annual number of executions in China ranges 
from 8,000 to 10,000.\195\ The Dui Hua Foundation, which 
researches and seeks to curb political imprisonment, estimates 
that China executed about 100,000 individuals during the past 
decade, accounting for more than 95 percent of all executions 
worldwide.\196\ According to Dui Hua, since the late 1990s 
there has been a significant rise in the executions of those 
found guilty of membership in ``splittist, terrorist 
organizations'' in the Xinjiang Uighur Autonomous Region.\197\ 
In addition, since the 1980s, numerous credible foreign media 
sources have reported on the practice of state-sanctioned 
removal and sale of the internal organs of executed 
prisoners.\198\ One Chinese magazine disclosed in late-2005 
that over 95 percent of organs transplanted in China comes from 
executed prisoners, and cited to Vice Minister of Health Huang 
Jiefu as the first official to publicly acknowledge that the 
majority of those organs originate from such prisoners.\199\
    The leaders of China's highest court have reasserted their 
legal authority to review all death penalty cases in an effort 
to limit the use of death sentences, and to prevent 
miscarriages of justice that undermine China's criminal justice 
system. Xinhua reported earlier this year: ``On Jan. 1, 2007, 
the Supreme People's Court (SPC) retrieved the right to review 
all death penalty decisions made by lower courts, ending its 
24-year absence in approving China's execution verdicts.'' 
\200\ Since January, SPC officials have heralded death penalty 
reform as a success, citing to the fact that the number of 
death penalty sentences imposed in 2006 reached a decade-long 
record low,\201\ and that during the first five months of 2007, 
the number of death sentences imposed by courts in Beijing 
dropped 10 percent from the same period last year.\202\ In 
early September, the China Daily reported that the downward 
trend had continued, and quoted one SPC vice president as 
saying that ``[the SPC] is handing down a very small number of 
death sentences for economic crimes now, just a few a year. And 
much fewer for crimes of bribery.'' \203\ A week later, 
domestic news media reported that the SPC had issued a new 
decision on adjudication of criminal cases, which called for 
``strict control and cautious application of the death 
penalty'' \204\ (code words for the government's continuing 
promise to limit the use of death penalty to only the most 
serious criminal cases).
    The SPC first began considering death penalty reform in 
1996, when the Criminal Procedure Law was revised, but pressure 
to accelerate reforms increased only after 2000, in response to 
domestic media coverage about a number of wrongful convictions 
that had led to unjustified executions.\205\ For example: In 
early 2005, a rape and murder suspect arrested by police 
confessed that he had committed the crime that had resulted in 
the 1995 execution of Hebei farmer Nie Shubin.\206\ In January 
2007, the Hunan provincial high court acknowledged that the 
1999 execution of local farmer Teng Xingshan was for the 
alleged murder of a woman who was in fact still alive.\207\ 
Over the past few years, the SPC has convened a number of 
seminars and training sessions to help lower-level courts draw 
lessons from judgments made in error.\208\ Last year, the 
Commission reported that the Chinese judiciary made reform of 
the death penalty review process a top priority in 2006, 
introducing new appellate court procedures for hearing death 
penalty cases.\209\ At the same time, the Commission also 
noticed that the SPC had not yet issued a judicial 
interpretation to help settle unresolved issues in the death 
penalty review process and further clarify its own procedures.
    SPC reform efforts during the past year have helped to 
clarify a new review process by which errors will better be 
detected, but reforms do not address continuing concerns about 
the use of illegally obtained evidence or the lack of judicial 
independence generally.\210\ The SPC's five-year court reform 
program effectively creates a three-step process in death 
penalty cases that is not available in ordinary criminal 
cases.\211\ Beginning in 2006, provincial-level high courts are 
to focus solely on appeals from lower-level courts.\212\ As of 
January 1, 2007, pursuant to an amendment to the Organic Law of 
the People's Courts, death penalty sentences are then submitted 
to the SPC for review and approval.\213\ This extra step is 
designed to provide an extra guarantee of impartiality, but an 
SPC decision issued in December 2006 indicates that death 
sentences subject to immediate execution (sometimes imposed 
because the case has been accelerated due to intense external 
pressures) still remain within the jurisdiction of provincial-
level high courts only.\214\ The SPC has more recently taken 
the lead in issuing, together with the Supreme People's 
Procuratorate, Ministry of Public Security, and Ministry of 
Justice, a joint opinion on the entire process for handling 
death penalty cases.\215\ While this may be a positive step 
toward providing greater clarity and transparency throughout 
the criminal process, the joint opinion still does not provide 
for the excludability of illegally obtained evidence and 
repeats the standard practice that such evidence cannot form 
the basis for a verdict.\216\ Furthermore, the joint opinion 
emphasizes the relevance and ultimate decisionmaking power of 
adjudication committees at the trial and appellate court 
levels, and provides for 
active participation by the procuratorate, but not by defense 
counsel, throughout all stages of the case.\217\
    Interestingly, the new joint opinion also grants a criminal 
defendant the opportunity to meet with his family prior to 
execution,\218\ and prohibits ``humiliation'' of a corpse,\219\ 
provisions that hint at the need for greater respect for the 
sanctity of the deceased. In 2006, reports from overseas 
medical and legal experts condemned the government's continuing 
practice of harvesting organs from executed prisoners without 
their consent.\220\ In January 2007, David Kilgour, a member of 
the Canadian parliament, and David Matas, a Canadian lawyer, 
released a revised version of their 2006 report and explained 
that the revised report ``presents, we believe, an even more 
compelling case for our conclusions than the first version 
did.'' \221\
    Although Vice Minister Huang Jiefu and spokesmen for both 
the Ministry of Health and the Ministry of Foreign Affairs have 
said that organ transplants are strictly regulated, and that 
donations must be accompanied by the written consent of the 
donor or donor's family members,\222\ 1984 provisions governing 
the use of corpses or organs from executed prisoners say that a 
corpse or organ belonging to an executed prisoner may also be 
used if no one has retrieved the prisoner's corpse for 
burial.\223\ According to Caijing Magazine, ``in several cases, 
local courts have sold organs from prisoners' cadavers without 
informing their families.'' \224\ In March 2007, the State 
Council passed new Regulations on Human Organ Transplants that 
prohibit the purchase and sale of human organs and explain what 
type of consent is needed for the donation of organs.\225\ The 
new regulations specifically omit any mention of the use of 
executed prisoners' organs and leave intact the 1984 
provisions. After several years of discussions between the 
World Medical Association andthe Chinese Medical Association, 
Chinese medical authorities agreed in theory at an October 5, 
2007, meeting in Copenhagen that they would not transplant 
organs from prisoners or others in official custody, except 
into members of the prisoner's immediate family.\226\


------------------------------------------------------------------------
  Significant Death Penalty Procedural Reforms (in chronological order,
                           since October 2005)
-------------------------------------------------------------------------
Second Five-Year Reform Program for the People's Courts (2004-2008)
 [Renmin fayuan di er ge wu nian gaige gangyao (2004-2008)]
  <bullet> Issued on October 26, 2005 by the Supreme People's Court.
  <bullet> Establishes criminal law reform, including reform of the
   death penalty review process, as one of the top priorities for
   judicial authorities during the 2004-2008 period.

Circular on Further Improving Court Hearing Work in Death Penalty Appeal
 Cases [Guanyu jinyibu zuo hao sixing ershen anjian kaiting shenli
 gongzuo de tongzhi]
  <bullet> Issued on December 7, 2005 by the Supreme People's Court.
  <bullet> Calls on provincial-level high courts to act as appellate
   bodies in death penalty cases, and establishes guidelines for how
   they should change their current practices.

Trial Provisions on Several Issues Regarding Court Hearing Procedures in
 Death Penalty Appeal Cases [Guanyu sixing di er shen anjian kaiting
 shenli chengxu ruogan wenti de guiding]
  <bullet> Jointly issued on September 21, 2006 by the Supreme People's
   Court and Supreme People's Procuratorate.
  <bullet> Establishes concrete guidelines for the handling of death
   penalty appeals by procuratorates and provincial-level high courts.

Decision on Amending the ``Organic Law of the People's Courts'' [Guanyu
 xiugai ``Zhonghua Renmin Gongheguo renmin fayuan zuzhifa'' de jueding]
  <bullet> Passed on October 31, 2006 by the National People's Congress
   Standing Committee.
  <bullet> Codifies into law the requirement that all death penalty
   sentences must be reviewed and approved by the Supreme People's
   Court.

Decision on Issues Relating to Consolidated Review of Death Penalty
 Cases [Guanyu tongyi xingshi sixing anjian hezhun quan youguan wenti de
 jueding]
  <bullet> Issued on December 28, 2006 by the Supreme People's Court.
  <bullet> Provides guidance on which death penalty cases will continue
   to be reviewed by provincial-level high courts, and which cases
   should be submitted to the Supreme People's Court for review.

Provisions on Some Issues Regarding Review of Death Penalty Cases
 [Guanyu fuhe sixing anjian ruogan wenti de guiding]
  <bullet> Issued on January 22, 2007 by the Supreme People's Court.
  <bullet> Provides guidance to all courts on when and how to review and
   approve a death sentence.

Decision on Further Strengthening Criminal Adjudication Work [Guanyu
 jinyibu jiaqiang xingshi shenpan gongzuo de jueding]
  <bullet> Issued in September 2007 by the Supreme People's Court.
  <bullet> Retains the death penalty, but calls for limiting its use to
   only the most serious criminal cases.
------------------------------------------------------------------------

                                Endnotes

    \1\ See 22 U.S.C. '6912(a)(5).
    \2\ See 22 U.S.C. '6912(b).
    \3\ The UN Working Group on Arbitrary Detention (UNWGAD) visited 
China from September 18-30, 2004, and the UN Special Rapporteur on 
Torture visited from November 20 to December 2, 2005. For findings from 
those visits, see UN Working Group on Arbitrary Detention, Report of 
the Working Group on Arbitrary Detention, Mission to China, Addendum, 
29 December 04 [hereinafter UNWGAD Report]; Manfred Nowak, Report of 
the Special Rapporteur on Torture and Other Cruel, Inhuman or Degrading 
Treatment or Punishment, Mission to China, Advance Edited Version, 10 
March 06 [hereinafter Nowak Report].
    \4\ These include the International Covenant on Economic, Social 
and Cultural Rights; the Convention on the Elimination of All Forms of 
Racial Discrimination; the Convention on the Elimination of All Forms 
of Discrimination Against Women; the Convention on the Rights of the 
Child; and the Convention Against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment. PRC Aide Memoire, reprinted in 
United Nations (Online), 13 April 06.
    \5\ Ibid.
    \6\ See Wang Xinyou, ``International Association of Anti-Corruption 
Authorities Formally Established; Jia Chunwang Elected First Chair'' 
[Guoji Fantanju Lianhehui zhengshi chengli; Jia Chunwang dangxuan 
shouren zhuxi], Procuratorial Daily (Online), 26 October 06; World 
Health Organization (Online), ``Dr. Margaret Chan to be WHO's next 
Director-General,'' 9 November 06.
    \7\ See, e.g., Universal Declaration of Human Rights, adopted and 
proclaimed by General Assembly resolution 217 A (III) of 10 December 
48, arts. 5, 9-11, 14 [hereinafter UDHR]; International Covenant on 
Civil and Political Rights, adopted by General Assembly resolution 
2200A (XXI) of 16 December 66, entry into force 23 March 76, arts. 7, 
9, 14 [hereinafter ICCPR].
    \8\ UN Commissioner for Human Rights, Fact Sheet #26, the Working 
Group on Arbitrary Detention. Examples of the first category include 
individuals who are kept in detention after the completion of their 
prison sentences or despite an amnesty law applicable to them, or in 
violation of domestic law or relevant international instruments. The 
rights and freedoms protected under the second category include those 
in Articles 7, 10, 13, 14, 18, 19, and 21 of the UDHR, and in Articles 
12, 18, 19, 21, 22, 25, 26, and 27 of the ICCPR.
    \9\ ICCPR, arts. 9(1) and 9(2).
    \10\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, art. 2.
    \11\ Nowak Report, para. 60.
    \12\ The 61st session of the UN Commission on Human Rights was held 
in Geneva from March 14 to April 22, 2005.
    \13\ See A Global Review of Human Rights: Examining the State 
Department's 2004 Annual Report, Hearing of the Subcommittee on Africa, 
Global Human Rights, and International Operations, House Committee on 
International Relations, 17 March 05, Oral Statement of Michael Kozak, 
Assistant Secretary of State for Democracy, Human Rights, and Labor, US 
Department of State, 40. Kozak, then-Acting Assistant Secretary of 
State for the Bureau of Democracy, Human Rights and Labor, noted in his 
testimony that the Administration's decision on whether it would 
introduce a resolution condemning China's human rights practices in any 
given year depended on what concrete steps the Chinese government had 
taken to improve human rights that year.
    \14\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Reports on Human Rights Practices--2006, China 
(includes Tibet, Hong Kong, and Macau), 6 March 07, sec. 1.e. As of 
September 2007, the Commission's Political Prisoner Database contained 
only 87 records of prisoners still believed to be in detention or 
serving sentences connected to counterrevolutionary activity.
    \15\ See Dui Hua Foundation (Online), ``Long-Serving June 4 
Prisoner Set for Release,'' 29 August 07.
    \16\ See Jim Yardley, ``Man Freed After Years in Jail for Mao 
Insult,'' New York Times (Online), 23 February 06; Dui Hua Dialogue, 
``Sentence Reduction for Yu Dongyue,'' Summer 05, 6.
    \17\ See Dui Hua Dialogue, ``Official Responses Reveal Many 
Sentence Adjustments,'' Fall 06, 6.
    \18\ See UN Commission on Human Rights (Online), Opinions adopted 
by the Working Group on Arbitrary Detention, Decision No. 8/2000, 9 
November 00, 70. In the opinion that it adopted, the UNWGAD declared 
Jigme Gyatso's detention to be arbitrary and in contravention of 
articles 19 and 20 of the UDHR and articles 19 and 22 of the UDHR.
    \19\ State Council Information Office, White Paper on Human Rights 
in China, PRC Central Government (Online), November 91.
    \20\ The Commission's Political Prisoner Database contained 
approximately 4,060 individual case records of political and religious 
imprisonment in China, as of September 2007. See supra, ``Political 
Prisoner Database,'' and accompanying notes. Thousands of political 
prisoners are detained in China's reeducation through labor system. See 
infra, ``Detention Outside the Criminal Process,'' and accompanying 
notes.
    \21\ Crimes that ``disturb public order'' are listed in Part 2, 
Chapter 6, Section 1, of the Criminal Law, and include ``assault[ing] a 
State organ, making it impossible for the State organ to conduct its 
work'' (Article 290), gathering people to block traffic (Article 291), 
and the use of heretical sects to undermine implementation of the law 
(Article 300), among others. Although the 1997 revision of the Criminal 
Law eliminated all counterrevolutionary crimes, it added a new category 
of crimes ``endangering state security.'' Crimes that ``endanger state 
security'' are listed in Part 2, Chapter 1, and include ``inciting 
splittism'' or ``splittism'' (Article 103), ``inciting subversion'' or 
``subversion'' (Article 105), and ``illegally providing state secrets 
to entities outside of China'' (Article 111), among others.
    \22\ See, e.g., CECC, 2003 Annual Report, 2 October 03, 15-16; 
CECC, 2004 Annual Report, 5 October 04, 13-14; CECC, 2005 Annual 
Report, 11 October 05, 25-26; CECC, 2006 Annual Report, 20 September 
06, 47-48.
    \23\ UNWGAD Report, para. 23.
    \24\ Nowak Report, para. 35.
    \25\ Ibid., para. 34.
    \26\ UDHR, art. 10 and 11(1); ICCPR, arts. 14(1) and 14(2).
    \27\ PRC Criminal Procedure Law [hereinafter CPL], enacted 1 
January 79, amended 17 March 96, art. 64 (establishing an exception to 
this requirement ``in circumstances where such notification would 
hinder the investigation or there is no way of notifying them''). The 
maximum period of detention prior to approval of a formal arrest is 37 
days after taking into account extensions permitted by law. Ibid., art. 
69.
    \28\ See CECC, 2003 Annual Report, 18; CECC, 2004 Annual Report, 
16; CECC, 2005 Annual Report, 25; CECC, 2006 Annual Report, 47.
    \29\ Human Rights in China (Online), ``News Wrap-up: Crackdowns on 
Petitioners Continue,'' 9 March 07; ``Cat-and-mouse game begins for 
petitioners,'' South China Morning Post (Online), 2 March 07.
    \30\ ``Ministry of Public Security Announces the Status of 
Preventing Major Public Security Disasters and Accidents, Ensuring 
Public Security Supervision'' [Gonganbu tongbao yufang zhongda zhi'an 
zaihai shigu, baozhang gonggong anquan ducha qingkuang], China News Net 
(Online), 2 March 06.
    \31\ Human Rights Watch (Online), ``Largest `Clean-up' of 
Protestors and Rights Activists in Years,'' 14 March 07.
    \32\ See Human Rights Watch (Online), ``China: Beijing Petitioners' 
Village Faces Demolition,'' 6 September 07; Mark Magnier, ``Beijing 
evicting disgruntled citizens from `petitioners village,''' Los Angeles 
Times (Online), 18 September 07.
    \33\ Human Rights Watch, ``China: Beijing Petitioners' Village 
Faces Demolition.''
    \34\ The U.S. State Department characterized house arrest as a 
``nonjudicial punishment and control measure'' that can sometimes 
include ``complete isolation in one's own home or another location 
under lock and guard.'' U.S. Department of State, Country Reports on 
Human Rights Practices--2006, China, sec. 1.d.
    \35\ Human Rights Watch, ``Largest `Clean-up' of Protestors and 
Rights Activists in Years.''
    \36\ ``Population Planning Official Confirms Abuses in Linyi City, 
Shandong Province,'' CECC China Human Rights and Rule of Law Update, 
October 2005, 2; Philip P. Pan, ``Rural Activist Seized in Beijing,'' 
Washington Post (Online), 7 September 05. For a summary and the 
ultimate outcome of Chen's case, see CECC, 2006 Annual Report, 49.
    \37\ Chinese Human Rights Defenders (Online), ``Activist Chen 
Guangcheng's House Arrest Exceeds Legal Limits, with Domestic Remedies 
Ineffective, CRD Submits Case to UN,'' 9 March 06.
    \38\ Hu Jia, ``After Serious Negotiations with Yuan Weijing, Police 
Are Forced to Formally Release Her From House Arrest'' [Zai Yuan 
Weijing yanzheng jiaoshe xia jingfang beipo zhengshi jiechu dui ta de 
``jianshijuzhu''], reprinted in Chinese Human Rights Defenders 
(Online), 29 May 07.
    \39\ Hu Jia, ``Yuan Weijing Barred From Meeting U.S. Embassy Human 
Rights Officer'' [Yuan Weijing huijian Meiguo shiguan renquan guanyuan 
shouzu], reprinted in Chinese Human Rights Defenders (Online), 6 July 
07; Maureen Fan, ``Wife of Chinese Activist Detained at Beijing 
Airport,'' Washington Post (Online), 25 August 07.
    \40\ Wu Yihuo and Hong Jun, ``Too Few Administrative Law 
Enforcement Cases Transferred to Judicial Organs--Relevant Anhui 
Research Reveals Information: Three Major Factors Influence Effective 
Links Between Administrative Law Enforcement and Criminal Law 
Enforcement'' [Xingzheng zhifa anjian yisong sifa jiguan taishao, Anhui 
youguan yanjiuban touchu xinxi: san da yinsu yingxiang xingzheng zhifa 
yu xingshi zhifa youxiao xianjie], Procuratorial Daily (Online), 31 
January 05; Protection of Human Rights in the Context of Punishment of 
Minor Crimes in China, Staff Roundtable of the Congressional-Executive 
Commission on China, 26 July 02, Testimony of Dr. Veron Mei-ying Hung, 
Associate, China Program, Carnegie Endowment for International Peace.
    \41\ Various analysts estimate that between 2 percent and 10 
percent of those sentenced to reeducation through labor are political 
detainees. Veron Mei-Ying Hung, ``Reassessing Reeducation Through 
Labor,'' 2 China Rights Forum 35 (2003); Randall Peerenboom, ``Out of 
the Frying Pan and Into the Fire,'' 98 Northwestern University Law 
Review 991, 1000-01 and accompanying notes (2004); Jim Yardley, ``Issue 
in China: Many in Jails Without Trial,'' New York Times (Online), 9 May 
05.
    \42\ PRC Administrative Punishment Law, enacted 17 March 96, art. 
8(6).
    \43\ For more information about the passage and effect of the 
Public Security Administration Punishment Law, see CECC, 2006 Annual 
Report, 51-52.
    \44\ PRC Public Security Administration Punishment Law, enacted 28 
August 05, art. 27(2).
    \45\ According to attorney Li Baiguang, at least 60 people were 
attending a worship service at a house church in Bukou district, 
Wendeng city, on June 11, 2006, when 50 public security officials from 
several different precincts and departments arrived. These authorities 
blocked the exits and ordered worshippers into police vehicles. Thirty-
one of the worshipers were driven to the Bukou police station for 
interrogation, and all but Tian Yinghua, Wang Qiu, and Jiang Rong were 
released following interrogation. Li noted that officials from the 
Wendeng Religious Affairs Office had been to the house church in April 
2006, and had told worshipers there that any religious gathering that 
exceeded 30 people or included non-family members was an ``illegal 
gathering.'' See Li Baiguang, ``Shandong Wendeng: Threatening to 
Confiscate House Where Christians Gathered'' [Shandong Wendeng: weixie 
yao moshou Jiditu jihui de fangzi], reprinted in China Aid Association 
(Online), 27 July 06; China Aid Association (Online), ``House Church 
Christians Take Legal Action, File Lawsuit Against Local Public 
Security Bureau for Illegal [Administrative] Detention'' [Shandong 
Wendeng jiating jiaohui Jidutu caiqu falu xingdong, qisu dangdi gongan 
jiguan feifa jujin], 25 October 06.
    \46\ According to an application for administrative reconsideration 
filed with the Wendeng city government by Li on June 30, 2006, the 
Wendeng Public Security Bureau's decision to place Tian, Wang, and 
Jiang in administrative detention illegally interfered with their 
constitutionally and legally protected right to freedom of religious 
belief. On September 28, the government rejected this application. On 
October 12, Li proceeded to file with the Wendeng Intermediate People's 
Court an administrative complaint that set forth arguments similar to 
the ones in his earlier application. See Application for Administrative 
Reconsideration Filed by Li Baiguang with the People's Government of 
Wendeng City, Shandong Province, on Behalf of Tian Yinghua, Wang Qiu, 
and Jiang Rong [Xingzheng fuyi shenqingshu], 30 June 06, reprinted in 
China Aid Association (Online), 27 July 06; Administrative Complaint 
Filed by Li Baiguang with the People's Court of Wendeng City, Shandong 
Province, on Behalf of Tian Yinghua [Xingzheng qisu zhuang], 12 October 
06, reprinted in Boxun, 26 October 06.
    \47\ China Aid Association (Online), ``Xinjiang Arrests Another 
Female Christian Preacher; Shandong Christians File Administrative 
Lawsuit Against Public Security Agency'' [Xinjiang you daibu yi ming nu 
jidu tu chuandao ren; Shandong jidu tu dui gongan jiguan tiqi xingzheng 
susong], 15 November 06.
    \48\ Trial Measures on Reeducation Through Labor [Laodong jiaoyang 
shixing banfa], issued 21 January 82, arts. 13, 58(10); Provisions on 
Public Security Agencies' Handling of Reeducation Through Labor Cases 
[Gongan jiguan banli laodong jiaoyang anjian guiding], issued 12 April 
02, art. 44.
    \49\ See Trial Measures on Reeducation Through Labor, art. 10; 
Provisions on Public Security Agencies' Handling of Reeducation Through 
Labor Cases, art. 9; These crimes are not serious enough to warrant 
punishment under the Criminal Law, but are too serious to fall under 
the PSAPL. See Protection of Human Rights in the Context of Punishment 
of Minor Crimes in China, Testimony of Dr. Veron Mei-ying Hung.
    \50\ A recent China Daily article notes that the original purpose 
of the reeducation through labor system was to ``punish dissent.'' Wu 
Jiao, ``New law to abolish laojiao system,'' China Daily (Online), 1 
March 07.
    \51\ Gao Yifei, ``Why NPC Delegates Propose Reforming the 
Reeducation Through Labor System'' [Renmin daibiao weihe tiyi gaige 
laojiao zhidu], Boxun (Online), 29 April 06.
    \52\ Nowak Report, para. 33; Bureau of Democracy, Human Rights, and 
Labor, U.S. Department of State, Country Reports on Human Rights 
Practices--2005, China (includes Tibet, Hong Kong, and Macau), sec. 
1.d.
    \53\ See PRC Criminal Law, ch. 3, sec. 1-3.
    \54\ Wu, ``New law to abolish laojiao system.''
    \55\ UNWGAD Report, paras. 56, 73. Individuals can appeal under the 
ALL for a reduction in, or suspension of, a RTL sentence, but these 
appeals are rarely successful. U.S. Department of State, Country 
Reports on Human Rights Practices--2005, China, sec. 1.d; Hung, 
``Reassessing Reeducation Through Labor,'' 37-38.
    \56\ See Protection of Human Rights in the Context of Punishment of 
Minor Crimes in China, Testimony of Dr. Veron Mei-ying Hung 
(``Unfortunately, the courts' role in reviewing the legality of 
administrative sanctions such as [RTL] has been limited by aggrieved 
parties' fear of suing administrative organs and limited access to 
lawyers as well as administrative organs' interference with the 
process.'')
    \57\ See After the Detention and Death of Sun Zhigang, Staff 
Roundtable of the Congressional-Executive Commission on China, 27 
October 03, Testimony of Dr. James D. Seymour, Senior Research Scholar, 
Weatherhead East Asian Institute, Columbia University; Protection of 
Human Rights in the Context of Punishment of Minor Crimes in China, 
Testimony of Dr. Veron Mei-ying Hung; Peerenboom, ``Out of the Frying 
Pan and into the Fire,'' 999.
    \58\ See U.S. Department of State, Country Reports on Human Rights 
Practices--2006, China, sec. 1.d. This number exceeds Professor James 
Seymour's estimate of 400,000 individuals held in RTL centers 20 years 
ago. After the Detention and Death of Sun Zhigang, Testimony of Dr. 
James D. Seymour.
    \59\ Freedom House (Online), 2005 China Country Report. In its 
December 2004 report, the UNWGAD found:
    ``The operation of the laws governing decisionmaking on placement 
in a [reeducation] through [labor] camp is, however, highly 
problematic. From reliable sources, including interviews with persons 
affected, it is clear that in the overwhelming majority of cases, a 
decision on placement in a [reeducation] center is not taken within a 
formal procedure provided by law. The commission vested with power to 
take this decision in practice never or seldom meets, the person 
affected does not appear before it and is not heard, no public and 
adversarial procedure is conducted, no formal and reasoned decision on 
placement is taken (or issued for the person affected). Thus, the 
decisionmaking process completely lacks transparency. In addition, 
recourse against decisions are [sic] often considered after the term in 
a center has been served.'' UNWGAD Report, para. 58.
    \60\ Under Chinese law, punishments that involve a restriction on 
personal liberty may only be established by national law. PRC 
Legislation Law, enacted 15 March 00, art. 8(v); PRC Administrative 
Punishment Law, arts. 9, 10.
    \61\ CPL, art. 12.
    \62\ PRC Constitution, art. 37.
    \63\ Nowak Report, para. 63; State Council Decision on the Question 
of Reeducation Through Labor [Guowuyuan guanyu laodong jiaoyang wenti 
de jueding], issued 3 Aug 57, para. 2; ``Last year's rate of resettling 
those released from prison or reeducation through labor near 90 
percent'' [Xingshi jiejiao renyuan qunian anzhilujin jiucheng], China 
Legal Publicity (Online), 3 March 06; Yardley, ``Issue in China: Many 
in Jails Without Trial.''
    \64\ Nowak Report, para. 62.
    \65\ Ibid., para. 64. Article 10(3) of the ICCPR provides that, 
``The penitentiary system shall comprise treatment of prisoners the 
essential aim of which shall be their reformation and social 
rehabilitation.'' In response to characterization of forced reeducation 
as a form of inhuman or degrading treatment, Chinese authorities have 
maintained that RTL helps transition detainees back into society.
    \66\ UNWGAD Report, paras. 16, 45; ICCPR, arts. 9, 14.
    \67\ In 2003, 127 NPC delegates raised the issue of reforming RTL. 
At the 2004 NPC plenary session, this number increased to 420, or 
approximately one-tenth of the entire NPC body. NPC delegates at the 
2005 plenary session submitted six motions to expedite RTL reform, and 
in January 2006, the NPCSC added the draft law for reforming RTL to its 
legislative plan for 2006. Gao, ``Why NPC Delegates Propose Reforming 
the Reeducation Through Labor System.''
    \68\ Liao Weihua, ``Reeducation Through Labor System Faces Change; 
Law on Correction of Unlawful Acts To Be Formulated'' [Laojiaozhi 
mianlin biangai jiang zhiding weifa xingwei jiaozhifa], Beijing News, 
reprinted in Xinhua (Online), 2 March 05.
    \69\ ``Reeducation Through Labor `Changes Names''' [Laojiao 
``gengming''], China Business View (Online), 4 March 05.
    \70\ Wu, ``New law to abolish laojiao system'' (summarizing 
comments by Wang Gongyi, Deputy Director of the Institute of Justice 
Research, a research center affiliated with the Ministry of Justice).
    \71\ See Qin Liwen, ``Chongqing Implements `Interim Provisions on 
Legal Representation in Reeducation Through Labor Cases''' [Chongqing 
shishi ``Lushi daili laodong jiaoyang anjian zanxing guiding''], Legal 
Daily, reprinted in Procuratorial Daily (Online), 3 April 07; Irene 
Wang, ``Lawyers win role for people facing labour-camp cases,'' South 
China Morning Post (Online), 4 April 07.
    \72\ See Chongqing Municipal Public Security Bureau, Chongqing 
Municipal Justice Bureau Circular on Issuing Interim Provisions on 
Legal Representation in Reeducation Through Labor Cases [Chongqing shi 
gonganju, Chongqing shi sifaju guanyu yinfa lushi daili laodong 
jiaoyang anjian zanxing guiding de tongzhi], issued 16 March 07, arts. 
2, 9-10.
    \73\ See CPL, arts. 32-41.
    \74\ See Wu, ``New law to abolish laojiao system'' (quoting Wang 
Gongyi as saying that ``[the Chongqing regulation] allows people to 
defend themselves, a right enshrined in the constitution'' and 
therefore ``works as a good example for national legislation''). The 
article notes that the Chongqing Justice Bureau obtained approval for 
its initiative from the Ministry of Justice and the Ministry of Public 
Security. In May, Shandong province adopted measures providing for 
similar procedural protections in RTL cases. See Trial Measures on 
Legal Representation in Reeducation Through Labor Cases [Lushi daili 
laodong jiaoyang anjian shixing banfa], issued 25 May 07.
    \75\ See Wu, ``New law to abolish laojiao system;'' Hai Tao, 
``Chongqing Permits Legal Representation in Reeducation Through Labor 
Cases'' [Zhongguo Chongqing yunxu lushi daili laodong jiaoyang an], 
Voice of America (Online), 4 April 07.
    \76\ See, e.g., CPL, arts. 92 (on interrogation by summons), 64 (on 
notification of the reasons for detention), 69 (on approval of arrest), 
124-128 (on release pending trial), and 168 (on pronouncement of a 
court judgment).
    \77\ See Supreme People's Court Notice on Issues Related to 
Clearing Cases of Extended Detention [Zuigao renmin fayuan guanyu 
qingli chaoqi jiya anjian youguan wenti de tongzhi], issued 29 July 03.
    \78\ See Several Provisions from the Supreme People's Procuratorate 
Regarding the Prevention and Correction of Extended Detention in 
Procuratorial Work [Zuigao renmin jianchayuan guanyu zai jiancha 
gongzuo zhong fangzhi he jiuzheng chaoqi jiya de ruogan guiding], 
issued 24 September 03, para. 1.
    \79\ Supreme People's Court, Supreme People's Procuratorate, and 
Ministry of Public Security Notice on the Strict Enforcement of the 
Criminal Procedure Law, and on the Conscientious Correction and 
Prevention of Extended Detention [Zuigao renmin fayuan, zuigao renmin 
jianchayuan, gonganbu guanyu yange zhixing xingshi susongfa, qieshi 
jiufang chaoqi jiya de tongzhi], issued 11 November 03.
    \80\ ICCPR, arts. 9(3) and 9(4).
    \81\ UNWGAD Report, para. 32.
    \82\ See State Council Information Office, White Paper on Fifty 
Years of Progress in China's Human Rights, PRC Central Government 
(Online), June 00.
    \83\ See State Council Information Office, White Paper on China's 
Progress in Human Rights: 2003, PRC Central Government (Online), March 
04.
    \84\ See State Council Information Office, White Paper on China's 
Progress in Human Rights in 2004, PRC Central Government (Online), 
April 05.
    \85\ Nowak Report, note 34.
    \86\ See Supreme People's Procuratorate Work Report [Zuigao renmin 
jianchayuan gongzuo baogao] [hereinafter SPP Work Report], 13 March 07.
    \87\ ``Consolidated Work of Correcting Extended Detention Has Been 
Effective; 96.2 Percent Drop in New Cases of Extended Detention 
Throughout the Nation Last Year''[Jiuzheng chaoqi jiya gonggu gongzuo 
qunian xin fasheng chaoqi jiya xiajiang 96.2%], Procuratorial Daily 
(Online), 21 May 06; ``Supreme People's Procuratorate Recognizes 
Continuing Problem of Extended Detention,'' CECC China Human Rights and 
Rule of Law Update, July 2006, 11-12.
    \88\ Wu Jing, ``Supreme People's Court President Xiao Yang: Delayed 
Justice Is In Fact Injustice'' [Zuigao renmin fayuan yuanzhang Xiao 
Yang: chidao de gongzheng jiushi bu gongzheng] Defense Lawyer Net, 3 
August 06.
    \89\ See National People's Congress Standing Committee Work Report 
[Quanguo Renmin Daibiao Dahui changwu weiyuanhui gongzuo baogao], 20 
March 07.
    \90\ See Han Jinghong, ``Supreme People's Procuratorate: In 2006, 
Phenomenon of Extended Detention Fell To Historical Low'' [Zuigaojian 
06 nian chaoqi jiya xianxiang yi jiangdao lishi zuididian], China News 
Net, reprinted in China Court Net, 14 March 07.
    \91\ ``Consolidated Work of Correcting Extended Detention Has Been 
Effective; 96.2 Percent Drop in New Cases of Extended Detention 
Throughout the Nation Last Year,'' Procuratorial Daily; ``Supreme 
People's Procuratorate Recognizes Continuing Problem of Extended 
Detention,'' CECC China Human Rights and Rule of Law Update, July 2006, 
11-12. In 2003, the SPP passed regulations that prohibit the abuse of 
legal procedures to disguise the extended detention of a criminal 
suspect. Several Provisions from the Supreme People's Procuratorate 
Regarding the Prevention and Correction of Extended Detention in 
Procuratorial Work, para. 1.
    \92\ In 2003, people's supervisors were given administrative 
authority to challenge only procuratorate actions in violation of 
Chinese law. See Supreme People's Procuratorate Trial Provisions on 
Implementation of the System of People's Supervisors [Guanyu shixing 
renmin jianduyuan zhidu de guiding (shixing)], issued 2 September 03, 
amended 5 July 04. There are some limitations on who may qualify to 
serve as a ``people's supervisor,'' including a minimum age of 23 years 
and formal recommendation and appointment upon evaluation. Ibid., arts. 
5(3) and 8. As of late 2006, 86% of the nation's procuratorates had 
instituted this system. See Nationwide Cases of Extended Detention Fall 
to Historical Low [Quanguo chaoqi jiya an jiangdao lishi zuidi], 
Beijing Youth Daily, reprinted in Xinhua (Online), 25 April 07.
    \93\ Nowak Report, para. 45; UN High Commissioner for Human Rights 
(Online), ``Human Rights Council Discusses Reports on Torture, 
Arbitrary Detention and Independence of Judges and Lawyers,'' 19 
September 06.
    \94\ Nowak Report, para. 42.
    \95\ Ibid., para. 43. These include police stations, pretrial 
detention centers, RTL centers, and ``ankang'' hospitals for the 
psychiatric commitment of criminal offenders.
    \96\ Ibid., para. 44.
    \97\ Ibid., para. 45.
    \98\ See also ibid., paras. 53-57.
    \99\ For more information about his case, see 2005 Annual Report, 
24; CECC, 2006 Annual Report, 57.
    \100\ For more information about their case, see ``Detention, 
Torture of Anhui Teens Reflect Continuing Criminal Procedure 
Violations,'' CECC China Human Rights and Rule of Law Update, October 
2006, 2.
    \101\ For additional discussion of these topics, see ``Law on the 
Books: Judicial Institutions and Challenges,'' infra.
    \102\ See Ministry of Foreign Affairs (Online), ``Third Report on 
the Implementation of the Convention against Torture and Others,'' 15 
November 00. The Chinese government ratified the CAT in 1988. Article 
19 of the CAT requires that state parties report to the Committee 
against Torture within one year of ratification and once every four 
years thereafter. The due date for the Chinese government's latest 
report was November 2, 2005.
    \103\ ``Foreign Ministry Spokesman Qin Gang's Press Conference on 6 
December 2005,'' Ministry of Foreign Affairs (Online), 7 December 05.
    \104\ PRC Criminal Law, arts. 247, 248. A ``judicial officer'' is 
defined as one who ``exercises the functions of investigation, 
prosecution, adjudication, and supervision and control.'' Ibid., art. 
94. The Special Rapporteur on Torture notes that the Supreme People's 
Procuratorate, which directly handles all investigations of torture, 
restricts application of both Articles 247 and 248 so that law 
enforcement officials are prohibited from acting, or punishable for 
abuses, in just a small number of enumerated cases. Nowak Report, para. 
16. New regulations effective July 2006 expand the number of punishable 
scenarios from five to eight (in cases of coercing a confession under 
torture) and from five to seven (in cases of acquiring evidence through 
the use of force and prisoner maltreatment). Supreme People's 
Procuratorate Provisions on the Criteria for Filing Dereliction of Duty 
and Rights Infringement Criminal Cases, sec. II, paras. 3-5.
    \105\ See Provisions on the Procedures for Public Security Agency 
Handling of Administrative Cases, [Gongan jiguan banli xingzheng anjian 
chengxu guiding], issued 26 August 03, art. 26 (stating that illegally 
acquired evidence may not form the basis of a determination in any 
administrative case). New provisions went into effect on August 24, 
2006, and supercede the 2003 provisions. See Ministry of Public 
Security, Provisions on the Procedures for Public Security Agency 
Handling of Administrative Cases [Gongan jiguan banli xingzheng anjian 
chengxu guiding], issued 29 March 06. The Ministry of Public Security 
has explained that the 2006 revision establishes stricter procedural 
rules consistent with the new Public Security Administration Punishment 
Law. See ``MPS Revises Internal Procedures To Conform With Public 
Security Administration Law,'' CECC China Human Rights and Rule of Law 
Update, November 2006, 10-11.
    \106\ Communist Party of the People's Republic of China, 
Regulations on Disciplinary Actions [Zhongguo Gongchandang jilu chufen 
tiaoli], issued 18 February 04.
    \107\ Provisions on Public Security Use of Continuing Interrogation 
[Gongan jiguan shiyong jixu panwen guiding], issued 12 July 04, arts. 
1, 18-19.
    \108\ Trial Regulations on Disciplinary Sanctions Against 
Procuratorate Personnel [Jiancha renyuan jilu chufen tiaoli (shixing)], 
issued 1 June 04, art. 47.
    \109\ ``Ministry of Justice Issues Prohibitions to Restrain Prison 
and RETL Police Abuses,'' CECC China Human Rights and Rule of Law 
Update, April 2006, 4.
    \110\ See Supreme People's Procuratorate Provisions on the Criteria 
for Filing Cases of Dereliction of Duty Infringing Upon Rights [Zuigao 
renmin jianchayuan guanyu duzhi qinquan fanzui anjian li'an biaozhun de 
guiding], issued 29 December 05, sec. 2. For additional information 
about these regulations, see CECC, 2006 Annual Report, 46.
    \111\ Human Rights in China, ``Impunity for Torturers Continues 
Despite Changes in the Law,'' April 00, 3. See also Professor Peter T. 
Burns, ``China and the Convention against Torture,'' The Canada China 
Procuratorate Reform Cooperation Programme Lecture Series I, Xi'an and 
Lanzhou, China (August 2005) (stating that ``[t]he whole premise of the 
Torture Convention is that torturers are not to enjoy impunity'' and 
that ``they must be investigated, arrested and tried for their 
crimes''). The prohibition against torture is also included in Article 
5 of the UDHR.
    \112\ See ``Miscarriage of Justice in Chaohu, Anhui: Three 
Policemen Investigated for Suspected Involvement in Coercing 
Confessions Under Torture'' [Anhui Chaohu yuan'an: san xingjing shexian 
xingxun bigong bei li'an zhencha], Xinhua (Online), 12 September 06; 
``Anhui: Four Students Falsely Accused of Murder, Detained For 3 Months 
During Which They Suffered Extensive Torture in Succession [Anhui: si 
xuesheng beiwu sharen jiya 3 ge yue; qijian zaoshou ``chelunzhan'' 
shoujin zhemo], Southern Metropolitan Daily, reprinted in Southern 
Daily (Online), 12 September 06.
    \113\ ``Symposium on Illegal Evidence Gathering and Wrongful 
Conviction'' Convenes; Procuratorates To Further Standardize Evidence 
Gathering Work'' [``Feifa quzheng yu xingshi cuo'an'' yantaohui 
zhaokai; jiancha jiguan jinyibu guifan quzheng gongzuo], Legal Daily 
(Online), 18 November 06.
    \114\ ``Supreme People's Procuratorate Says It Will Strengthen 
Implementation of the Existing System To Bring Under Control the Use of 
Illegal Evidence Gathering'' [Zuigaojian biaoshi jiang qianghua zhixing 
xian you zhidu zhili feifa quzheng], Xinhua (Online), 19 November 06.
    \115\ See SPP Work Report, 11 March 02; SPP Work Report, 10 March 
04; SPP Work Report, 9 March 05.
    \116\ See SPP Work Report, 13 March 07.
    \117\ Office of the UN High Commissioner for Human Rights (Online), 
Declaration and Reservations to the Convention against Torture and 
Other Cruel, Inhuman or Degrading Treatment or Punishment, 23 April 04. 
By contrast, the United States has declared that it recognizes the 
competence of the Committee against Torture.
    \118\ UN High Commissioner for Human Rights, ``Human Rights Council 
Discusses Reports on Torture, Arbitrary Detention and Independece of 
Judges and Lawyers.''
    \119\ Nowak Report, para. 17.
    \120\ Burns, ``China and the Convention against Torture,'' 8.
    \121\ Human Rights in China, ``Impunity for Torturers,'' 16.
    \122\ See Amnesty International (Online), ``China: Torture/Medical 
concern/Prisoner of conscience, Chen Guangcheng (m),'' 21 June 07.
    \123\ See Li Qing and Huang Hui, ``Jingdezhen No. 2 Detention 
Center Superintendent Prosecuted'' [Jingde zhen di er kanshousuo 
zhidaoyuan bei qisu], China Legal Publicity (Online), 4 June 05.
    \124\ See ``No Tolerance For Further Aggression By Prison Bosses'' 
[Bu rong laotou yuba zai xiaozhang], Chinese People's Political 
Consultative Conference (Online), 13 September 04.
    \125\ See Ya Wei, ``Critique: Malpractice and Reform in China's 
Police System'' [Pingxi: Zhongguo jingcha zhidu de bibing he gaige], 
Voice of America (Online), 1 September 06.
    \126\ See ``Nation Altogether Has 52,000 Police Stations, 490,000 
People's Police'' [Quanguo you paichusuo 5.2 wan minjing 49 wan], Legal 
Daily (Online), 8 February 06; ``Report Concerning Public Security 
Reform (Part 6): Of 770,000 Communities Nationwide, 80 Percent Have 
Constructed Police Affairs Offices'' [Quanguo 7.7 wan ge shiqu bacheng 
jian you jingwushi--guangzhu gongan gaige baodao zhi liu], Legal Daily 
(Online), 10 April 06; ``Report Concerning Public Security Reform (Part 
5): 150,000 Criminal Police Pursue 652 Fugitives Each Day Online [15 
wan xingjing meitian wang shang zhuitao 652 ren--guangzhu gongan gaige 
baodao zhi wu], Legal Daily (Online), 6 April 06.
    \127\ ``Clear Drop in Number of Rural Mass Incidents in 2006, 
Compared With 2005'' [2006 nian he 2005 nian xiangbi nongcun quntixing 
shijian shuliang mingxian xiajiang], PRC Central Government (Online), 
30 January 07.
    \128\ CECC, 2005 Annual Report, 10.
    \129\ Ministry of Public Security (Online), ``Liu Jinguo Calls for 
Strengthening Public Security's Grassroots, Fundamentals Work, and 
Wholeheartedly Safeguarding Social Stability'' [Liu Jinguo zhichu 
jiaqiang gongan jiceng jichu gongzuo, quanli weihu shehui wending], 18 
April 07; Zhao Huanxin, ``Farmers' protests drop 20% last year,'' China 
Daily (Online), 31 January 07.
    \130\ Ministry of Public Security (Online), ``Ministry of Public 
Security Announces First Quarter 2006 Nationwide Public Security 
Situation (Direct Feed Transcript)'' [Gonganbu tongbao 2006 nian di yi 
jidu quanguo shehui zhi'an xingshi (tuwen zhibo)], 11 April 06.
    \131\For more information, see CECC, 2006 Annual Report, 45; 
``Power Plant Construction Continues After Government Suppresses 
Villager Protests in Shanwei,'' CECC China Human Rights and Rule of Law 
Update, January 2006, 4-5.
    \132\ Ministry of Public Security, ``Liu Jinguo Calls for 
Strengthening Public Security's Grassroots, Fundamentals Work, and 
Wholeheartedly Safeguarding Social Stability.''
    \133\ Ya, ``Critique: Malpractice and Reform in China's Police 
System.''
    \134\ Ibid.
    \135\ Communist Party Central Committee Resolution on Further 
Strengthening and Improving Public Security Work [Zhong Gong Zhongyang 
guanyu jinyibu jiaqiang he gaijin gongan gongzuo de jueding], issued 
November 03.
    \136\ Communique of the Sixth Plenum of the Sixteenth Communist 
Party Central Committee [Zhongguo Gongchandang di shiliu jie Zhongyang 
Weiyuanhui di liu ci quanti huiyi gongbao], issued 11 October 06, 
reprinted in Xinhua (Online).
    \137\ Communist Party Central Committee Resolution on Major Issues 
Regarding the Building of a Harmonious Socialist Society [Zhong Gong 
Zhongyang guanyu goujian shehuizhuyi hexie shehui ruogan zhongda wenti 
de jueding], issued 11 October 06, reprinted in Xinhua (Online).
    \138\ Decoding the Resolution of the Sixth Plenum of the Sixteenth 
Communist Party Central Committee: 10 Major Keywords [Jiedu shiliu jie 
liu Zhong quanhui ``jueding'' shi da guanjianci], Xinhua, reprinted in 
People's Daily (Online), 28 October 06.
    \139\ Ministry of Public Security (Online), ``Ministry of Public 
Security Convenes Press Conference To Announce Public Security 
Situation and Status of Implementation of Community and Village Police 
Affairs Strategy'' [Gonganbu zhaokai xinwen fabuhui tongbao shehui 
zhi'an xingshi ji shishi shequ he nongcun jingwu zhanlue qingkuang], 14 
November 06.
    \140\ Wang Doudou, ``Civilians are Most Important Backers of Public 
Security: Decoding Community and Village Police Affairs Strategy'' 
[Baixing shi gongan zuida kaoshan: jiedu shequ he nongcun jingwu 
zhanlue], Legal Daily (Online), 14 November 06.
    \141\ See supra, ``Detention Outside the Criminal Process,'' and 
accompanying notes.
    \142\ ``Beijing Police Will Establish a Public Security Violation 
Blacklist; Those Who Have Been Punished Will Leave Behind a Record'' 
[Beijing jingfang jiang jian zhi'an weifa heimingdan; shou chufa zhe 
jiang liu andi], Legal Evening News, reprinted in Procuratorial Daily 
(Online), 13 April 06.
    \143\ Li Jian, ``Why Some Police Resemble Crime Bosses'' [Weishenme 
youde jingcha xiang ``heilaoda''], China Youth Daily (Online), 13 July 
06.
    \144\ ``Zhang Yuqing: Increase Police Types To Take Over City 
Management and Carry Out Administration of Urban Order'' [Zhang Yuqing: 
zengjia jing zhong jieti chengguan jinxing chengshi zhixu guanli], 
Yancheng Evening Post (Online), 12 March 07.
    \145\ David Bandurski, ``Are police over-reaching in their 
application of China's new law on management of public security?'' 
China Media Project (Online), 27 July 07.
    \146\ CECC, 2006 Annual Report, 46.
    \147\ See, e.g., ``Ministry of Public Security Decides To Implement 
Resident [Police] Inspection Commissioner System; Residence Period 3 
Years'' [Gonganbu jueding shixing paizhu ducha zhuanyuan zhidu; paizhu 
shijian 3 nian], Public Security Daily, reprinted in Xinhua (Online), 
11 May 06; Ministry of Public Security Implements Resident [Police] 
Inspection Commissioner System [Gonganbu shixing paizhu ducha zhuanyuan 
zhidu], Legal Daily (Online), 11 Mary 06.
    \148\ See Dan Shibing, ``Punish Thuggish Airs of Police [Zhizhi 
jingcha piqi],'' Baixing Magazine (Online), 2006.
    \149\ See Wu Junyi, ``My View on the New Restrictive Relationship 
Between Police and Procuratorate'' [Xinxing de jing, jian zhiyue guanxi 
zhi wojian], Procuratorial Daily (Online), 5 February 06.
    \150\ Article 14(3)(d) of the ICCPR states that any individual 
charged with a crime is entitled:
    ``[t]o defend himself in person or through legal assistance of his 
own choosing; to be informed, if he does not have legal assistance, of 
this right; and to have legal assistance assigned to him, in any case 
where the interests of justice so require, and without payment by him 
in any such case if he does not have sufficient means to pay for it.''
    \151\ See, e.g., ``Lawyers Nationwide Total Over 150,000'' [Quanguo 
lushi yi da 15 wan yu ren], Legal Daily (Online), 11 July 06 (noting 
that this number includes over 7,000 part-time lawyers and 31,957 
paralegals).
    \152\ ``Central Government Expands Provision of Legal Aid in 
Criminal Cases,'' CECC China Human Rights and Rule of Law Update, 
December 2005, 5-6; Provisions on Legal Aid Work in Criminal Litigation 
[Guanyu xingshi susong falu yuanzhu gongzuo de guiding], issued 28 
September 05, art. 4.
    \153\ PRC Lawyers Law, enacted 15 May 96, art. 42.
    \154\ See Jian Fa, ``Independence Called for Lawyers,'' Beijing 
Review (Online), 2 April 04 (citing to a report from the Fifth National 
Lawyers Convention).
    \155\ See CECC, 2006 Annual Report, 55.
    \156\ Pro bono legal defense is guaranteed only to certain, limited 
categories of defendants, including minors, those who face a possible 
death sentence, and those who are blind, deaf, or mute. CPL, arts. 33, 
34; Regulations on Legal Aid [Falu yuanzhu tiaoli], issued 16 July 03, 
art. 12.
    \157\ In cases involving ``state secrets,'' a criminal suspect must 
first obtain the approval of the investigating agency before he can 
appoint a lawyer; the lawyer must obtain similar approval before he can 
meet with his client. See CPL, art. 96.
    \158\ See CECC, 2003 Annual Report, 19-20.
    \159\ See CECC, 2006 Annual Report, 55.
    \160\ See ibid., 56.
    \161\ CPL, art. 45.
    \162\ UNWGAD Report.
    \163\ See ``First Issuance of a `Lawyers Proposed Draft and 
Arguments for Another Revision of the Criminal Procedure Law''' 
[``Xingshi Susongfa zai xiugai lushi jianyi gao yu lunzheng'' shoufa], 
Defense Lawyer Net, 20 April 07.
    \164\ See CECC, 2006 Annual Report, 56.
    \165\ Human Rights Watch, ``A Great Danger for Lawyers: New 
Regulatory Curbs on Lawyers Representing Protestors,'' December 06, 7.
    \166\ Ibid.
    \167\ ``Legal Community Denounces All China Lawyers Association For 
Harming the Legal Rights of the Masses'' [Fajie chi luxie qianghai 
dazhong falu quanli], Ming Pao Daily (Online), 15 June 06.
    \168\ UNWGAD Report, para. 38. See also ``Defense Lawyers Turned 
Defendants: Zhang Jianzhong and the Criminal Prosecution of Defense 
Lawyers in China,'' Congressional-Executive Commission on China, 27 May 
03.
    \169\ ``NPC Delegate Zhang Yan Proposes Elimination of Criminal Law 
Article 306'' [Zhang Yan daibiao jianyi feichu xingfa di san bai ling 
liu tiao], Legal Daily (Online), 9 March 06.
    \170\ Xiao Yang, ``Scrapping Article 306 Would Make Law Fairer,'' 
China Daily, 12 April 04; ``Several Problems in the Reform of Judicial 
Administration'' [Sifa xingzheng gaige de ruogan falu wenti], Legal 
Daily, 12 August 04.
    \171\ See supra, ``Social Unrest and Coercive Use of Police 
Power,'' and accompanying notes.
    \172\ See Chinese Human Rights Defenders (Online), ``The Perils of 
Defending Rights: A Report on the Situation of Human Rights Defenders 
in China (2006),'' 4 May 07, pt. I(2)(c).
    \173\ See CECC, 2006 Annual Report, 57.
    \174\ See China Human Rights Lawyers Concern Group, ``Deeply 
Concerned About the Recent Incidents of Beating and Detention of 
Mainland Human Rights Lawyers,'' 22 June 07.
    \175\ Under China's Criminal Law, a court may suspend a prisoner's 
sentence and allow that prisoner to serve the period of suspension on 
the outside, subject to observation and other restrictions imposed by a 
public security organ. See PRC Criminal Law, arts. 72-77.
    \176\ See China Human Rights Lawyers Concern Group (Online), 
``Demand Immediate Release of Beijing Human Rights Lawyer Gao 
Zhisheng,'' 27 September 07. For more information about Gao's open 
letter, which called on the Congress to take action against the Chinese 
government's human rights abuses, see Human Rights Torch Relay 
(Online), ``Gao Zhisheng's letter to the Senate and the Congress of the 
United States,'' 12 September 07; Bill Gertz, ``Chinese dissident urges 
boycott of Olympics,'' Washington Times (Online), 21 September 07.
    \177\ Under China's Criminal Law, a court may impose a 
supplementary punishment of ``deprivation of political rights'' (in 
addition to fixed-term imprisonment). A term of deprivation of 
political rights is typically counted beginning on the date that a 
prisoner has completed his sentence. See PRC Criminal Law, arts. 54-55, 
58.
    \178\ Fang Yuan, ``Status of Shanghai Lawyer Zheng Enchong's 
Summons for Interrogation, Petitioners' House Arrest'' [Shanghai lushi 
Zheng Enchong bei chuanxun ji rangmin bei ruanjin qingkuang], Radio 
Free Asia (Online), 1 October 07.
    \179\ The number of criminal defendants who have been found guilty 
is actually on the rise, while the number found not guilty continues to 
drop. In 2006, Chinese trial courts found 889,042 defendants guilty of 
crimes and 1,713 not guilty. Supreme People's Court Work Report [Zuigao 
renmin fayuan gongzuo baogao][hereinafter SPC Work Report], 21 March 
07. Those numbers were 844,717 guilty, 2,162 not guilty in 2005; and 
767,951 guilty, 2,996 not guilty in 2004. See SPC Work Report, 20 March 
06.
    \180\ Article 14(3)(d) of the ICCPR states that: ``In the 
determination of any criminal charge against him, or of his rights and 
obligations in a suit at law, everyone shall be entitled to a fair and 
public hearing by a competent, independent and impartial tribunal 
established by law.''
    \181\ See supra, ``Political Crimes,'' and accompanying notes.
    \182\ See CPL, art. 152.
    \183\ For more information, see http://www.yangjianli.com.
    \184\ See ``China Frees Protestant Pastor After Three Years,'' 
Agence France-Presse (Online), 17 September 07; China Aid Association 
(Online), ``Renowned Beijing Church Leader Cai Zhuohua Released after 
Three Years Imprisonment for distributing Bibles; Forced Labor for 
Olympics Products Imposed,'' 14 September 07, for confirmation of Cai's 
release. See CECC, 2006 Annual Report, 38; ``Beijing Court Jails House 
Church Minister for Giving Away Bibles,'' CECC Human Rights and Rule of 
Law Update, December 2005, 1-2 for information about Cai's case.
    \185\ Supreme People's Court, Several Opinions on Strengthening the 
Open Adjudication Work of the People's Courts [Guanyu jiaqiang renmin 
fayuan shenpan gongkai gongzuo de ruogan yijian], issued 4 June 07.
    \186\ Responses provided during interrogation may later be used as 
evidence at trial, but a court cannot convict and sentence a defendant 
``if there is only his statement but no evidence.'' CPL, arts. 46, 93.
    \187\ See CECC, 2005 Annual Report, 24 (on the wrongful convictions 
of She Xianglin and Nie Shubin); CECC, 2006 Annual Report, 57-58 (on 
the wrongful conviction of a Chongqing man for robbery).
    \188\ ``Behind the Scenes of a Wrongful Conviction: Judicial 
Games'' [Cuo'an muhou de sifa youxi], Xinhua (Online), 14 April 05.
    \189\ See ``First Issuance of a `Lawyers Proposed Draft and 
Arguments for Another Revision of the Criminal Procedure Law,''' 
Defense Lawyer Net.
    \190\ See ``Supreme People's Court Maps Future Judicial Reforms in 
Five Year Reform Program,'' CECC Human Rights and Rule of Law Update, 
February 2006, 7-9; Supreme People's Court, Second Five-Year Reform 
Program for the People's Courts (2004-2008)[Renmin fayuan di er ge wu 
nian gaige gangyao (2004-2008)], issued 26 October 05.
    \191\ ``Behind the Scenes of a Wrongful Conviction: Judicial 
Games,'' Xinhua.
    \192\ CECC Staff Interviews; Veron Mei-Ying Hung, ``Judicial Reform 
in China: Lessons from Shanghai,'' 58 Carnegie Papers 10-11 (April 
2005).
    \193\ Chinese sources note that the number of crimes punishable by 
death increased from 28 under the 1979 Criminal Law to 68 
(approximately one-quarter of the total number of crimes) under the 
1997 Criminal Law. Xiong Qiuhong, ``Discussing the Defense of Death 
Penalty Cases'' [Lun sixing anjian zhong de bianhu], Justice of China 
(Online), 20 July 04; Lin Tao, ``Study on the Issues in Hearing and 
Reviewing Death Penalty Cases'' [``Sixing'' anjian de shenli yiji fuhe 
zhong de wenti yanjiu], China Legal Publicity (Online), 10 January 06. 
At least one scholar has characterized 44 (approximately 65 percent) of 
the crimes punishable by death as nonviolent crimes. Jiang Anjie, 
``Compilation of Viewpoints from the First Period Forum `Concerning 
Death Penalty Reform''' [``Guanzhu sixing gaige'' shouqi luntan 
guandian huicui], China Legal Publicity (Online), 29 December 05 
(quoting Professor Gao Mingxuan, Renmin University). See also ``Death 
Penalty Developments in 2005,'' Amnesty International (Online), 20 
April 06; ``China to Open More Death Penalty Cases to Public,'' 
Reuters, reprinted in China Daily (Online), 27 February 06.
    \194\ ``PRC Foreign Ministry Spokesman Defends Keeping PRC 
Execution Statistics Secret,'' Agence France-Presse, 5 February 04 
(Open Source Center, 5 February 04).
    \195\ Liu Renwen, a scholar at the Law Institute of the Chinese 
Academy of Social Sciences, estimates that China carried out about 
8,000 executions in 2005. Geoffrey York, ``China's Secret Execution 
Rate Revealed,'' The Globe and Mail (Online), 28 February 06; Antoaneta 
Bezlova, ``China to `Kill Fewer, Kill Carefully,''' Asia Times 
(Online), 31 March 06. In March 2004, an NPC delegate suggested that 
Chinese courts issue death sentences for immediate execution in 
``nearly 10,000 cases per year.'' ``41 Representatives Jointly Sign 
Proposal for the Supreme People's Court to Take Back the Power of Death 
Penalty Approval'' [41 daibiao lianming jianyi, zuigao renmin fayuan 
shouhui sixing hezhun quan], China Youth Daily, reprinted in People's 
Daily (Online), 10 March 04.
    \196\ ``China urged to cut back executions before Olympics (John 
Kamm),'' Agence France-Presse, reprinted in Yahoo (Online), 9 June 07.
    \197\ Dui Hua Foundation (Online), ``Death Penalty Reform Should 
Bring Drop in Chinese Executions,'' Winter 07.
    \198\ See CECC, 2003 Annual Report, 21; CECC, 2004 Annual Report, 
20.
    \199\ ``Organ Transplants: A Zone of Accelerated Regulation'' 
[Qiguan yizhi: jiakuai guizhi de didai], Caijing Magazine (Online), 28 
November 05. In late-2006, Vice Minister Huan reported this 
information, stating: ``Apart from a small portion of traffic victims, 
most of the organs from cadavers are from executed prisoners.'' Qiu 
Quanlin and Zhang Feng, ``In organ donations, charity begins with 
body,'' China Daily (Online), 16 November 06.
    \200\ ``Court hails penalty review a success,'' Xinhua, reprinted 
in China Daily (Online), 10 June 07.
    \201\ ``Least number of death sentences meted out in '07,'' Xinhua 
(Online), 16 March 07.
    \202\ Xie Chuanjiao, ``Fewer executions after legal reform,'' China 
Daily (Online), 8 June 07.
    \203\ Xie Chuanjiao, ``Capital punishment decreases nationwide,'' 
China Daily (Online), 5 September 07.
    \204\ Wu Jing, ``Supreme People's Court Demands Strengthening of 
Criminal Adjudication'' [Zuigao renmin fayuan yaoqiu jiaqiang xingshi 
shenpan], People's Daily (Online), 14 September 07.
    \205\ Feng Jianhua, ``Taking Back the Power,'' Beijing Review 
(Online), 5 February 07.
    \206\ Ibid.
    \207\ Liu Li, ``In matter of life and death, extra caution,'' China 
Daily (Online), 2 November 06.
    \208\ See ``China's Supreme Court to Reclaim Death Penalty Review 
Right from Lower Tribunals,'' Xinhua, reprinted in People's Daily 
(Online), 26 October 05; Song Wei, ``610 Death Penalty Judges 
Congregate in Beijing for Rotational Training, Consolidating the 
Measure of Death Penalty Standards'' [610 ming sixing faguan Beijing 
jizhong lunxun; tongyi sixing biaozhun chidu], Democracy & Law Times 
[Minzhu yu fazhi shibao], reprinted in Defense Lawyer Net, 13 November 
06.
    \209\ CECC, 2006 Annual Report, 58-59.
    \210\ See supra, ``Fairness of Criminal Trials,'' and accompanying 
notes.
    \211\ For additional information on the reform program's specific 
provisions related to death penalty reform, see CECC, 2006 Annual 
Report, 58-59.
    \212\ In September 2006, the SPC and Supreme People's Procuratorate 
jointly issued a judicial interpretation to provide guidance on when 
and how to conduct an appeals hearing in a death penalty case. See 
Supreme People's Court and Supreme People's Procuratorate, Trial 
Provisions on Several Issues Regarding Court Hearing Procedures in 
Death Penalty Appeals Cases [Guanyu sixing di er shen anjian kaiting 
shenli chengxu ruogan wenti de guiding], issued 21 September 06. 
Nonetheless, an SPC Vice President noted in July 2007 that provincial-
level high courts continue to apply uneven standards during such 
hearings. See Xie Chuanjiao, ``Supreme court targets `judicial 
injustice,''' China Daily (Online) 5 July 07.
    \213\ Article 13 of the PRC Organic Law of the People's Courts was 
amended on October 31, 2006, to read: ``Death penalty sentences, with 
the exception of those decided by the Supreme People's Courts, shall be 
submitted to the Supreme People's Court for review and approval.'' 
National People's Congress Standing Committee, Decision on Amending the 
``Organic Law of the People's Courts'' [Guanyu xiugai ``Zhonghua Renmin 
Gongheguo renmin fayuan zuzhifa'' de jueding], issued 31 October 06. In 
January 2007, the SPC issued a judicial interpretation to provide 
guidance on when and how to review and approve a death sentence. See 
Supreme People's Court, Provisions on Some Issues Regarding Review of 
Death Penalty Cases [Zuigao renmin fayuan guanyu fuhe sixing anjian 
ruogan wenti de guiding], issued 22 January 07.
    \214\ Supreme People's Court, Decision on Issues Relating to 
Consolidated Review of Death Penalty Cases [Guanyu tongyi xingshi 
sixing anjian hezhun quan youguan wenti de jueding], issued 28 December 
06.
    \215\ See Supreme People's Court, Supreme People's Procuratorate, 
Ministry of Public Security, Ministry of Justice, Opinion on Further 
Handling Cases in Strict Accordance with Law, to Ensure the Quality of 
Death Penalty Case Handling [Guanyu jinyibu yange yifa ban an quebao 
banli sixing anjian zhiliang de yijian], issued 9 March 07.
    \216\ Ibid., Items 6 and 13.
    \217\ See, e.g., ibid., Item 34.
    \218\ Ibid., Item 45.
    \219\ Ibid., Item 48.
    \220\ ``British Transplantation Society Criticizes the Alleged Use 
of Organs Without Consent from Prisoners Executed in the People's 
Republic of China,'' The British Transplantation Society (Online), 19 
April 06; David Matas and David Kilgour, Report into Allegations of 
Organ Harvesting of Falun Gong Practitioners in China, 6 July 06, 
available at ``Report Into Allegations of Organ Harvesting of Falun 
Gong Practitioners in China,'' Epoch Times (Online), 7 July 06.
    \221\ David Matas and David Kilgour, Revised Report into 
Allegations of Organ Harvesting of Falun Gong Practitioners in China, 
31 January 07, available at http://organharvestinvestigation.net/.
    \222\ See, e.g., Ministry of Foreign Affairs (Online), ``September 
28, 2006, Routine Press Conference Q&A With Foreign Ministry Spokesman 
Qin Gang'' [2006 nian 9 yue 28 ri Waijiaobu fayanren Qin Gang zai 
lixing jizhehui shang da jizhe wen], 28 September 06; Qiu and Zhang, 
``In organ donations, charity begins with body.''
    \223\ Temporary Provisions Regarding the Use of Corpses or Organs 
from Executed Prisoners [Guanyu liyong sixing zuifan shiti qiguan de 
zanxing guiding], issued 9 October 84, para. 3.
    \224\ Ji Minhua and Zhang Yingguang, ``Beijing Mulls New Law on 
Transplants of Deathrow Inmate Organs,'' Caijing Magazine (Online), 28 
November 05.
    \225\ State Council, Regulations on Human Organ Transplants [Renti 
qiguan yizhi tiaoli], issued 21 March 07.
    \226\ ``China Agrees Not To Take Inmates' Organs,'' Associated 
Press (Online), 5 October 07.

                                 <all>

</pre></body></html>
